No. 20In the

Supreme Court of the United States
ZACHARY PULERA,
Petitioner,
v.
VICTORIA SARZANT, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

PETITION FOR A WRIT OF CERTIORARI

Stephen C. Willey
Counsel of Record
Savitt Bruce & Willey LLP
Joshua Green Building
1425 Fourth Avenue, Suite 800
Seattle, WA 98101
(206) 749-0500
swilley@sbw.com
Counsel for Petitioner

299808

i

QUESTIONS PRESENTED
Whether the Court should resolve the Seventh
Circuit’s departure from the summary judgment
standard articulated by this Court in Anderson v.
Liberty Lobby, Inc. , 477 U.S. 242 (1986), by
construing facts and reasonable inferences in favor
of a moving party.
Whether the Court should resolve the Seventh
Circuit’s newly created causation standard in Civil
Rights Cases that directly conflicts with Supreme
Court and Seventh Circuit precedent.

ii

PARTIES TO THE PROCEEDINGS
Petitioner in this proceeding is Zachary Pulera.
Respondents in this proceeding are as follows:
Erica Rea, Denise Gilanyi, Markella Reed, and Sylvia
Summer-Sgroi (“Nurse Defendants”). Victoria
Sarzant, Shane Gerber, Dennis Zawilla, Bruce
Clemens, Duane Corso, and Darron Newton (“County
Defendants”) and Dr. Karen Butler.

iii

RELATED CASES

Pulera v. Sarzant, et al., No. 15-C-461, U.S.
District Court for the Eastern District of Wisconsin.
Judgment entered on January 9, 2019.
Pulera v. Sarzant, No. 15-C-461, U.S. District
Court for the Eastern District of Wisconsin.
Judgment entered on June 12, 2019.
Pulera v. Sarzant, No. 19-2291, Judgment entered

July 15, 2020.

Pulera v. Sarzant, No. 19-2291, Order on petition for
rehearing entered August 17, 2020.

iv

TABLE OF CONTENTS

Page
QUESTIONS PRESENTED ........................................i
PARTIES TO THE PROCEEDINGS ......................... ii
RELATED CASES .................................................. iii
TABLE OF CONTENTS .......................................... iv
TABLE OF APPENDICES ..........................................vi
TABLE OF CITED AUTHORITIES........................ vii
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW ........................................................ 1
JURISDICTION ............................................................ 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ........................................... 1
STATEMENT .............................................................. 3
REASONS FOR GRANTING THE PETITION......... 7
I.

Review is necessary to harmonize the Seventh
Circuit’s departure from the Supreme Court’s
summary judgment standard that requires all facts
and reasonable inferences be made in the
nonmoving party’s favor ......................................... 7

v

II. The Seventh Circuit’s decision departed from
Supreme Court precedent and created an IntraCircuit split over the previously applied harm
standard articulated in Farmer v. Brennan ....... 13
CONCLUSION ............................................................... 21

vi

TABLE OF APPENDICES

Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT, FILED JULY 15, 2020 ....... 1a
APPENDIX B — ORDER OF THE UNITED
STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT, FILED AUGUST 17, 2020
............................................................................... 28a
APPENDIX C — DECISION AND ORDER OF
THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF WISCONSIN,
FILED JANUARY 9, 2019 ................................... 55a
APPENDIX D — DECISION AND ORDER OF
THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF WISCONSIN,
FILED JUNE 12, 2019 ........................................ 73a

vii

TABLE OF CITED AUTHORITIES

Page
Cases

Anderson v. Liberty Lobby, Inc.,
477 U.S. 242 (1986)........................................... 7, 8, 9
Betker v. City of Milwaukee,
22 F. Supp. 3d 915, 923 (E.D. Wis. 2014) .............. 19
Brown v. Plata,
563 U.S. 493, 511, 131 S. Ct. 1910,
179 L.Ed.2d 969 (2011) ............................................. 3
Dockery v. Blackburn,
911 F.3d 458 (7th Cir. 2018) ...................................... 9
Egebergh v. Nicholson,
272 F.3d 925 (7th Cir. 2001) ................................... 15
Estate of Perry v. Wenzel,
872 F.3d 439, 459 (7th Cir. 2017) ...................... 8, 16
Farmer v. Brennan

511 U.S. 825, 114 S. Ct. 1970,
128 L. Ed. 2d 811 (1994) ................................. passim

Gayton v. McCoy,
593 F.3d 610, 6 (7th Cir. 2010) ................................. 15
Hope v. Pelzer,

536 U.S. 730, 122 S. Ct. 2508,
153 L.Ed.2d 666 (2002) ..................................... 14, 18

viii

Cited Authorities
Page
Miranda v. County Lake,
900 F.3d 335 (7th Cir. 2018) ..................................... 16
Ortiz v. City of Chi.,
656 F.3d 523 (7th Cir. 2011) .......................... passim
Paredes v. Cook Cty.,
No. 15 C 3644, 2018 U.S. Dist. LEXIS
175796, at *8 (N.D. Ill. Oct. 12, 2018) ................... 16
Peck v. Ford Motor Co.,
603 F.2d 1240 (7th Cir. 1979) ................................ 18
Pulera v. Sarzant,
966 F.3d 540 (7th Cir. 2020) ........................... passim
Reed v. McBride,
178 F.3d 849 (7th Cir. 1999) ...................................... 7
Scott v. Harris,
550 U.S. 372 (2007)..................................................... 9

ix

Cited Authorities
Page
Statutes
U.S. Const. Amend. IV ............................................. 1
U.S. Const. Amend. VIII ........................................... 2
U.S. Const. Amend. XIV, § 1 ..................................... 2
28 U.S.C. § 1254(1).................................................... 1
42 U.S.C. § 1983 ................................................ passim

1

PETITION FOR A WRIT OF CERTIORARI
Petitioner Zachary Pulera (“Pulera”) respectfully
petitions for a writ of certiorari to review the judgment
of the United States Court of Appeals for the Seventh
Circuit
OPINIONS BELOW
The Seventh Circuit opinion below is published at
966 F. 3d 540 attached at Appendix 1a – 27a. The
district court’s opinion is unpublished attached at
Appendix 28a – 54a.
JURISDICTION
The Federal Circuit entered judgment on July 15,
2020, and denied rehearing on August 17, 2020. The
Court has jurisdiction under 28 U.S.C. § 1254(1).
On March 19, 2020, the Supreme Court ordered
that the deadline to file any petition for a writ of
certiorari due after March 19, 2020, was extended to
150 days from the date of the lower court judgment,
order denying discretionary review, or order denying
a timely petition for rehearing. See Order List: 589
U.S. This petition meets the criteria for extension
under the order.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
United States Constitution, Amendment IV:

2

The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated, and no warrants shall issue, but upon
probable cause, supported by oath or affirmation, and
particularly describing the place to be searched, and
the persons or things to be seized.
United States Constitution, Amendment VIII:
Excessive bail shall not be required, nor excessive
fines imposed, nor cruel and unusual punishments
inflicted.
United States Constitution, Amendment XIV, Section
1:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the state wherein
they reside. No state shall make or enforce any law
which shall abridge the privileges or immunities of
citizens of the United States; nor shall any state
deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
42 U.S.C. § 1983:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State

3

or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable
to the party injured in an action at law, suit in equity,
or other proper proceeding for redress, except that in
any action brought against a judicial officer for an act
or omission taken in such officer’s judicial capacity,
injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief
was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District
of Columbia shall be considered to be a statute of the
District of Columbia.
STATEMENT
“A prison that deprives prisoners of basic
sustenance, including adequate medical care, is
incompatible with the concept of human dignity and
has no place in civilized society. If government fails to
fulfill this obligation, the courts have a responsibility
to remedy the resulting Eighth Amendment
violation.” Brown v. Plata, 563 U.S. 493, 511, 131 S.
Ct. 1910, 179 L.Ed.2d 969 (2011). The Seventh Circuit
has abandoned this Constitutional tenet and created
a new threshold on summary judgement which has
been repeatedly rejected by this Court. The Appellate
Court additionally created a new standard regarding
the “harm” element of civil rights cases. These
holdings run contrary to years of Supreme Court
precedent and have created an intra-circuit split. As a
result, this Court’s involvement is required.

4

The Appellant, Zachary Pulera, was arrested on
April 21, 2012, and was booked into the Kenosha
County Pre-Trial Facility (“KCJ”). See Plaintiff’s
Appendix (“App.”) 30a. Over the course of 48 hours,
Pulera submitted three separate Inmate Medical
Requests (“IMR”) asking for his medication and
medical assistance:
“I need my clonazepam and my tramadol. My
family is dropping them off. For pain anxiety and
depression.” App. 5a.
“My heart hurts I can’t breathe I need my meds or
I can die. My heart is pounding. They are here. I need
you to please bring me my meds, A.S.A.P. Thank you.”
(emphasis added) App. 6a, 60a.
“I can’t eat sleep I am throwing up and I’m dizzy.
I can’t breathe I need my blood pressure tooking
please see me, my brother and mother just died. I need
my clonazepam I am sick.” Id. at 7a, 33a.
These pleas for help went unanswered. As a result,
Pulera attempted to hang himself the morning of
April 23, 2012.
There is no dispute that Pulera expressed that he
was in pain, was anxious and depressed, was
experiencing withdrawal symptoms, needed his
medications and was fearful of death. App. 5a-7a. The
District Court erred in taking it upon itself to
interpret and construe these requests against the nonmoving party at the summary judgment stage,

5

holding that these requests were not cries for help but
instead “suggests that he wanted to live.” App.70a.
The Seventh Circuit then failed to correct the District
Court’s clear error, and in doing so created a new
standard regarding the causation element in civil
rights matters:
Undoubtedly, a jury could infer that the
defendants knew Pulera might become
anxious or suffer chronic pain without his
medications, but he points to nothing that
would inform them that this anxiety or pain
might lead him to attempt suicide or
otherwise cause harm comparable to a risk
of overdose. (App. 20a).
In short, the Seventh Circuit created a heightened
harm threshold standard and assumed the role of
finder of fact in direct contradiction of Supreme Court
precedent. The Court recognized that a jury could find
that Pulera suffered some harm while simultaneously
finding that the potential harm suffered was not
severe enough to meet the causation element under
the Fourth Amendment’s “objectively unreasonable”
standard. Id.
This Court in Farmer v. Brennan established that
if a prison official knows an inmate faces a substantial
risk of harm but disregards that risk, said official may
be held liable for constitutional violations. 511 U.S.
825, 847, 114 S. Ct. 1970, 1984, 128 L. Ed. 2d 811
(1994). A Defendant does not need to anticipate the
exact harm, only that they are aware of a substantial
risk of harm to an inmate.

6

For many years, the Seventh Circuit followed

Farmer’s precedent that specific causation for a

particular result was not required and the causation
element could be met if the conduct caused “some
harm.” The current standard created by the Pulera
decision is diametrically opposed to Farmer and
Seventh Circuit law.
Additionally, the Seventh Circuit further ignored
Supreme Court precedent by requiring the nonmoving
party provide concrete evidence of the reasonable
inferences which logically stem from the underlying
facts, ignoring circumstantial evidence and raising
the bar to an insurmountable standard on summary
judgment in civil right cases.
The Court recognized a factual dispute existed as
to what information was relayed to Defendant Nurse
Summers-Sgroi by Pulera’s brother, William. (App.
24a-25a). William informed Nurse Summers-Sgroi
that Pulera was suicidal and needed his medication
which William himself provided to the jail. Id. After
being notified that Pulera was suicidal and not
receiving his medication, Summers-Sgroi failed to
inform Dr. Butler or anyone else, and took no
additional measures to provide care. Id. The Seventh
Circuit conceded that Summers-Sgroi received notice.
Id. However, the Seventh Circuit found that no jury
could find it objectively unreasonable for SummerSgroi to withhold the knowledge that Pulera was
suicidal from her supervisors. Id.
The Seventh Circuit in Pulera ignored the

7

Supreme Court and its own well established
precedent. This decision threatens the underpinnings
of every prisoner’s fundamental right to adequate
medical care while incarcerated.
REASONS FOR GRANTING THE PETITION
I.

Review is necessary to harmonize the Seventh
Circuit’s departure from the Supreme Court’s
summary judgment standard that requires all
facts and reasonable inferences be made in the
nonmoving party’s favor.

The District Court and Seventh Circuit conducted
a “paper-trial.” Reed v. McBride, 178 F.3d 849, 852
(7th Cir. 1999) (“We are required to accept all of Reed's
evidence as true, drawing all reasonable inferences in
his favor, and may not downplay his evidence, or
conduct a "paper trial" on the merits of his claim). The
district court and Seventh Circuit erroneously
determined they were in a better position than a jury
to decide what was reasonable and what testimony
was credible. The panel below went so far as to
interpret Pulera’s medical requests and drew
conclusions as to what those cries for help meant, e.g.
only expressing mild discomfort. App. 21a.
The summary judgment standard applied by the
Seventh Circuit directly conflicts with Supreme Court
precedent in Anderson v. Liberty Lobby, Inc., 477 U.S.
242 (1986), which stated that:
Credibility determinations, the weighing of the

8

evidence, and the drawing of legitimate inferences
from the facts are jury functions, not those of a
judge, whether he is ruling on a motion for
summary judgment or for a directed verdict. The
evidence of the non-movant is to be believed, and
all justifiable inferences are to be drawn in his
favor. Id. at 255.
The panel’s erroneous standard also conflicts with
previous Seventh Circuit case Estate of Perry v.
Wenzel, 872 F.3d 439, 459 (7th Cir. 2017). In Perry
the Seventh Circuit directly cites to the Anderson
holding and correctly left credibility determinations
and drawing of inferences to the jury. Id. at 454. The
panel in Perry overturned a District Court ruling
because it “improperly credited [defendant’s]
testimony that they never perceived that Perry was in
distress … [and] ignore[d] the district court’s
obligation at summary judgment to consider the
evidence in the light most favorable to [the plaintiff].”
Id. at 454 (emphasis in original).
Here, the Seventh Circuit engaged in credibility
determinations and provided all reasonable
inferences to the moving party when it concluded they
were unaware when Nurse Summers-Sgroi examined
Pulera in relation to when she received information
that Pulera was suicidal. “Though no one knows
whether she received the call before or after the vitals
check, at best she had either just seen Pulera or was
just about to see him.” App. 25a. The Seventh Circuit
dismissed this dispute of material fact and found an
unreasonable inference in the moving parties favor. In
sum, the Seventh Circuit held that a nurse can receive

9

information about a suicidal inmate and tell no one.
This was an abrogation of the courts’ duty under the
law and controlling precedent.
It is black-letter law that a court must construe all
facts and reasonable inferences therefrom in the
nonmoving party’s favor. See Anderson, 477 U.S. 242;
Reed, 178 F.3d 852. A court may only disregard the
nonmoving party’s version of the facts if it is “visible
fiction.” Scott v. Harris, 550 U.S. 372, 381 (2007); and
see Dockery v. Blackburn, 911 F.3d 458, 461 (7th Cir.
2018) (“to the extent Dockery’s story is ‘blatantly
contradicted’ by the video evidence such that no
reasonable jury could believe it, we do not credit his
version of events.”) Neither the district court nor
Seventh Circuit concluded Pulera’s version was such
blatant fiction.
Here, the district court and Seventh Circuit
weighed the credibility of the testimony and evidence,
determined facts, drew conclusions from these facts in
favor of the moving party, and failed to draw a single
reasonable inference in Pulera’s favor. This is an
untenable distortion of the law. No §1983 case could
ever survive summary judgment given such a hostile
consideration, where all inferences are drawn in favor
of dismissal, credibility determined in favor of the
accused, disputes of fact determined against the
victim, evidence ignored, and all actions and inactions
of Defendants presumed reasonable.
The Seventh Circuit recognized all of these
material factual disputes as to what information was
relayed to Defendant Nurse Summers-Sgroi by

10

Pulera’s brother, William. App. 24a-25a. William
informed Nurse Summers-Sgroi that Pulera was
suicidal and needed his medication which William
himself provided to the jail. Id. After being notified
that Pulera was suicidal and not receiving his
medication, Summers-Sgroi failed to inform Dr.
Butler or anyone else, and took no additional
measures to provide care. The panel below even
conceded that Summers-Sgroi received notice. Id.
And yet, the panel concluded that no jury could
find it objectively unreasonable for Summer-Sgroi to
withhold the knowledge that Pulera was suicidal from
her supervisors. Id. The Seventh Circuit panel
suggests Summers-Sgroi’s actions were exactly what
the defendant in Ortiz v. City of Chicago, should have
done. Id.; 656 F.3d 523 (7th Cir. 2011). Yet, it
improperly applies the findings and basic facts of
Ortiz, where a defendant officer received multiple
calls stating that an inmate needed her medication or
to see a doctor. Ortiz, 656 F.3d 529-30. The officer
informed one of her supervisors about the phone calls
but took no further action. Id. Ortiz found a jury
should determine if these actions were reasonable.
656 F.3d at 533. (“Was it reasonable to do nothing
aside from notifying her supervisors after receiving
the calls? That, in our view, is the very question that
the jury should decide.”). While citing to Oritz the
Panel rejects the very premise of that decision and
attempts to rationalize Summer-Sorgi’s inaction,
directly conflicting with the Ortiz precedent.
The Defendant in Ortiz did far more than
Summers-Sorgi here. That defendant actually

11

informed a supervisor of the potential health risk.
Summers-Sorgi did nothing. The fact the she
eventually saw Pulera is meaningless as it was not in
response to the phone call but in her regular course of
duties. Summers-Sorgi denies she was even informed
of the suicide risk and by her own accord she could not
have acted on that information. (App. 24a-25a). Could
a reasonable jury find that by refusing to tell the
doctor in charge of Pulera’s medical care about his
potential suicide risk, that Summers-Sgroi acted
objectively unreasonable? That is the exact decision
Ortiz left for a jury to determine. The Seventh Circuit
either fails to comprehend the cases it cites or seeks to
reverse them without notice.
The Seventh Circuit justifies the nurse
defendants’ failures as simply deferring medical
decisions to Dr. Butler, “All four nurses were entitled
to defer to Dr. Butler’s medical judgment weighing the
costs and benefits of these two choices.” (App. 21a).
But professional deferral cannot excuse the failure to
pass along pertinent information that a patient is
suicidal. Dr. Butler cannot make an informed medical
judgment if Nurse Summers-Sgroi withholds material
information of Pulera’s suicidal tendencies. The panel
cannot have it both ways and this circular reasoning
cannot stand. A jury must decide the disputed fact of
whether Summers-Sgroi was actually put on notice
that Pulera was suicidal, and whether her failure to
inform her supervisor of this central fact was
objectively reasonable.
Additionally, the Seventh Circuit accepted as
undisputed fact that Dr. Butler withheld Pulera’s

12

medication because she was concerned that Pulera
may have been abusing his prescription medication.
App. 21a. Setting aside the fact that a pill discrepancy
is not a basis to unequivocally determine abuse, Dr.
Butler’s reasoning and credibility are disputed. App.
18a-19a. The first time Dr. Butler explained her
reasoning to withhold Pulera’s medication, despite his
numerous pleas, was in her deposition. Id. Her
reasoning was not documented anywhere and was not
expressed to any of the nurses. This alleged reasoning
was only presented in a subsequent deposition. Dr.
Butler’s credibility is not for a court to determine but
for the jury.
Whether
Butler’s
inaction
under
these
circumstances is objectively unreasonable is a
question for the jury. The panel below stated that Dr.
Butler reasonably concluded “the only foreseeable risk
of depriving Pulera of his prescriptions was a few
days’ discomfort—a small price to pay compared to
even a low chance of overdose.” (App. 21a). This
unfounded assumption determined a disputed fact in
favor of the moving party and assessed the credibility
of Defendant’s unsupported ad hoc testimony, while at
the same time, ignoring the actual harm caused.
Moreover, Dr. Butler’s purported concern about
Pulera’s alleged dispute and pill discrepancy is
undermined by her failure to implement the policies
and procedures in place to monitor intoxicated or
withdrawing prisoners. App. 18a. Again, The Seventh
Circuit’s made a credibility determination in the
moving party’s favor.
These are determinations that must be left for an

13

ultimate finder of fact. If left to stand, Pulera will
allow other Courts to stand in place of the Jury and
deny our most vulnerable population their
Constitutional Rights.
Dr. Butler was aware that Pulera begged for his
medication, expressed he was suffering withdrawal
symptoms, suffered recent family deaths, and feared
his own death. In response, Dr. Butler failed to place
Pulera in detox protocol or provide him his medication
and failed to document any medical explanation for
her inaction. This cannot be constitutionally adequate
medical care for those deprived of their liberty.
Likewise, nurse Summer-Sgroi didn’t tell anyone
that Pulera was suicidal and needed his medication.
As a result of her silence, no orders could have been
made to assist Pulera who proceeded with his suicide
attempt. It is not a court’s place to assume facts and
strip a jury of its position as ultimate fact finder.
II. The Seventh Circuit’s decision departed from
Supreme Court precedent and created an IntraCircuit split over the previously applied harm
standard articulated in Farmer v. Brennan.
This Court held that, “a prison official may be held
liable under the Eighth Amendment for denying
humane conditions of confinement only if he knows
that inmates face a substantial risk of serious harm
and disregards that risk by failing to take reasonable
measures to abate it.” Farmer v. Brennan, 511 U.S.
825, 847, 114 S. Ct. 1970, 1984, 128 L. Ed. 2d 811

14

(1994).
The Seventh Circuit
precedent by finding:

directly

rejected

this

Undoubtedly, a jury could infer that the
defendants knew Pulera might become anxious or
suffer chronic pain without his medications, but
he points to nothing that would inform them that
this anxiety or pain might lead him to attempt
suicide or otherwise cause harm comparable to a
risk of overdose. App. 20a.
The Seventh Circuit acknowledged that Pulera
faced the serious risks of anxiety and chronic pain but
arbitrarily determined these risks did not meet a
specific level of harm. Id. That is not what the Court
in Farmer established. By the Seventh Circuit’s own
admission, the harm/causation element has been met.
By withholding Pulera’s medication Dr. Butler
undeniably caused him serious harm. Simply because
the panel believed the harm Pulera suffered was not
more severe is irrelevant and directly opposed to this
Court’s holdings.
In fact, this Court has found the harm element
satisfied under far less egregious circumstances. Hope
v. Pelzer, 536 U.S. 730, 122 S. Ct. 2508, 153 L.Ed.2d
666 (2002). In Hope, the §1983 plaintiff was
handcuffed outside for seven hours while being given
water only once and two bathroom breaks. Id. at 73435. In identifying the harm aspect of this case the
Court found:

15

Despite the clear lack of emergency, respondents
knowingly subjected him to a substantial risk of
physical harm, unnecessary pain, unnecessary
exposure to the sun, prolonged thirst and
taunting, and a deprivation of bathroom breaks
that created a risk of particular discomfort and
humiliation. Id. at 731.
Knowingly subjecting an inmate to the risk of
physical harm or unnecessary pain is all that is
required to establish harm was caused. Here, the
Seventh Circuit found that Dr. Butler knowingly
subjected Pulera to increased anxiety and chronic
pain. App. 20a.
Without enunciating that the Pulera decision
diverged from this Court’s precedent, the Seventh
Circuit created a new harm threshold standard that
requires specific causation.
The Seventh Circuit previously followed Farmer
and rejected that very analysis on multiple occasions.

Ortiz v. City of Chi., 656 F.3d 523, 533 (7th Cir. 2011)

(“Ortiz [was] not required to show ‘specific causation’
for a particular result; she need[ed] only to establish
that the failure to take Molina to the hospital was
unreasonable under the circumstances and that it
caused her some harm.”); Egebergh v. Nicholson, 272
F.3d 925 (7th Cir. 2001), where Seventh Circuit
denied summary judgment even though the
defendants “did [not] know that missing one insulin
shot could kill [the deceased].” Id. at 928 ; Gayton v.
McCoy, 593 F.3d 610, 6 (7th Cir. 2010), "[p]roximate
cause is a question to be decided by a jury, and only in

16

the rare instance that a plaintiff can proffer no
evidence that a delay in medical treatment
exacerbated an injury should summary judgment be
granted on the issue of causation."; Estate of Perry v.
Wenzel, 872 F.3d 439, 459 (7th Cir. 2017), where
Seventh Circuit found that although the plaintiff died
of a heart condition, a jury could infer a delay in
providing treatment caused Perry harm; Miranda v.
County Lake, 900 F.3d 335 (7th Cir. 2018), holding
that “medical records alone could suffice [to establish
causation].” Id. at 347; and see Paredes v. Cook Cty.,
No. 15 C 3644, 2018 U.S. Dist. LEXIS 175796, at *8
(N.D. Ill. Oct. 12, 2018) (applying Miranda by only
requiring that the plaintiff show “verifying medical
evidence that the delay in medical care caused some
degree of harm”).
Neither the Supreme Court or Seventh Circuit has
ever before required civil rights plaintiffs to prove, at
the summary judgment stage, that a particular
defendant’s acts or omissions were the sole cause of a
plaintiffs specific injuries and that it was foreseeable
that such acts or omissions would result in that
specific injury. Yet, the Seventh Circuit panel in
Pulera demanded exactly that. The Court found that
causation could never be proven because Pulera did
not conclusively establish that “had [he] received his
medication, he would not have attempted suicide.”
App. 11a, 19a. The Seventh Circuit’s cause analysis
here improperly elevates the standard of §1983 cases
to a new heightened level.
When attempting to determine what causation
burden Pulera must overcome at the summary

17

judgment stage the Court relied on Ortiz. App. 25a.
Ortiz reversed and rejected a district court decision
that narrowed the issue of causation to “whether the
plaintiff could prove that the failure of the defendants
to provide Molina with access to her medications
proximately caused her death.” 656 F.3d at 534.
Finding that standard improper, Ortiz held that
proximate cause is a question to be decided by a jury,
and “only in the rare instance that a plaintiff can
proffer no evidence that a delay in medical treatment
exacerbated an injury should summary judgment be
granted on the issue of causation.’" Id. quoting
Gayton, 593 F.3d 624.
Despite this clear precedent the Seventh Circuit
panel still held, at the summary judgment stage, that
the clearly distressed Pulera’s written pleas for help
through medical request forms were not sufficient
notice of self-harm potential. It is undisputed that
Pulera begged for his anxiety and depression
medication, informed staff that his brother and
mother had recently died, was fearful of his own
death, and expressed signs of withdrawal. App. 4a-5a,
7a, 33a-34a, 40a, 60a, 69a. Given these facts, a
reasonable jury could find that a medical professional
should have known Pulera was a risk to himself.
Particularly because these signs are routinely
documented as risk factors for self-harm at these
same facilities.
But this is not the standard Pulera was required
to show at the summary judgment stage. He simply
needed to show that ignoring his medical requests
caused some harm or increased the likelihood of harm.

18

Farmer, 511 U.S. 847; Hope, 536 U.S. 731. The panel

below conceded that withholding Pulera’s medication
caused him anxiety and chronic pain and that a jury
could infer the Defendants, and Dr. Butler in
particular, were aware of these risks. App. 20a. At
that stage, nothing further is needed to meet the
causation element under the objectively unreasonable
standard established by years of Seventh Circuit case
law.
Yet, the panel below misapplied the very case law
upon which it relied. App. 20a. Such a finding directly
contradicts the standard established in Farmer, Hope
and their progeny. Here, Pulera need only show the
jury could infer that delaying his medical care caused
some harm, leaving that jury to determine the extent
of such harm and resulting damages. The panel below
recognized Pulera’s IMR’s expressed anxiety,
depression, and pain. (App. 20a, 22a-23a).
Determining that anxiety, depression and pain fail to
meet an actionable harm threshold turns 10 years of
Seventh Circuit precedent on its head, will throw
future §1983 cases into disarray, and will function as
a near total bar to any inmate suicide claims, where
specific cause is often unknowable or impossible to
prove.
The panel below also demanded a standard of
foreseeability that has been rejected by the Seventh
Circuit. “We recognize that it is a generally accepted
principle that foreseeability does not mean that the
precise hazard or the exact consequences which were
encountered should have been foreseen.” Peck v. Ford
Motor Co., 603 F.2d 1240, 1246 (7th Cir. 1979) see also

19

Betker v. City of Milwaukee, 22 F. Supp. 3d 915, 923

(E.D. Wis. 2014) (applying Peck to a §1983 claim). In
Pulera, the Seventh Circuit erroneously required that
Defendants have knowledge of the precise
consequence:
“[i]f Pulera’s primary care physician
prescribed him clonazepam and tramadol because
he was known to be suicidal without them, that
fact is missing from the record.” App. 20a-21a.
“[A] jury could not infer that depriving Pulera
of his medications might be deadly from the mere
fact that a physician had prescribed them to him,”
Id. at 19.
“Pulera likens his situation to that of a diabetic
deprived of insulin. But a diabetic needs insulin to
live. No evidence suggest that Pulera depended on his
medications to stay alive.” Id. at 20.
Like the district court, the Seventh Circuit
engaged in the prohibited weighing of evidence
against the non-moving party directly contrary to
Farmer.
At the summary judgment stage, “the causation
inquiry is quite broad.” Ortiz, 656 F.3d at 535. Just as
Ortiz concluded a jury could have inferred that
“defendants caused [the decedent] harm when they
failed to take her to the hospital after they knew she
suffered from a serious medical condition,” Id.; a jury
could infer in Pulera’s case that the Defendants
unreasonable refusal to begin titration, investigate

20

the missing pills, or do anything to help the obviously
distressed man, caused Pulera some harm. The panel
below ignored this analysis and instead required
Pulera to prove, at summary judgment, that “had [he]
received his medication, he would not have attempted
suicide.” (App. 11a, 19a). That is not and never has
been the law anywhere in the United States of
America.
From the totality of the evidence, a jury could
reasonably infer the unreasonable actions of the
Defendants caused Pulera harm. Pulera was
prescribed medication for anxiety and depression and
repeatedly sent concerning and alarming IMRs
requesting such medication (including the statement
“I need my meds or I can die”). As the Seventh Circuit
stated, “a jury could infer that the defendants knew
Pulera might become anxious or suffer chronic pain
without his medication.” App. 20a. From these facts,
and the many others in the record, a jury could
reasonably conclude that the actions of the
Defendants caused Pulera some harm as the Seventh
Circuit clearly did. That is all that is required at this
stage of litigation.
This “specific harm” standard for culpable
knowledge directly contradicts the harm standard of
established precedent, and this conflict warrants a
grant of certiorari.

21

CONCLUSION
For the reasons stated herein this Court should
grant certiorari.
Respectfully submitted,
s/Stephen C. Willey
Stephen C. Willey

Counsel of Record

Savitt Bruce & Willey LLP
Joshua Green Building,
1425 Fourth Ave, Suite 800
Seattle, WA 98101-2272
T: (206) 749-0500
swilley@sbw.com

Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT, FILED JULY 15, 2020
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 19-2291
ZACHARY PULERA,
Plaintiff-Appellant,
v.
VICTORIA SARZANT, et al.,
Defendants-Appellees.
June 10, 2020, Argued
July 15, 2020, Decided
Appeal from the United States District Court
for the Eastern District of Wisconsin.
No. 2:15-cv-00461-WCG
William C. Griesbach, Judge.
Before Flaum, Barrett, and St. Eve, Circuit Judges.
S t. Eve, Circuit Judge. Police arrested Zachary
Pulera on suspicion of bail jumping and brought him to
the Kenosha County Pre-Trial Facility. Just under fortyeight hours later, Pulera attempted to hang himself in his

2a
Appendix A
cell. Fortunately, correctional officers noticed, swiftly cut
him down, and called for an ambulance that saved his life.
Over his two days at the facility, Pulera never told any
official that he was contemplating suicide. This appeal asks
whether a long list of officials nevertheless unreasonably
responded to other possible signs that Pulera was in
distress, so that they may face liability for his injuries
under 42 U.S.C. § 1983. The district court concluded
there was no genuine dispute that all officials responded
reasonably to the information each had, so it granted the
defendants’ motions for summary judgment. We affirm
the judgment.
I. BACKGROUND
A. Intake
In the early morning of Saturday, April 21, 2012,
police stopped Edward Burke for a suspected hit-and-run.
Pulera, Burke’s cousin, was in the car’s passenger seat,
drunk. Officers arrested both men: Burke for the hit-andrun and Pulera for drinking in violation of a condition of his
bond pending trial on state battery charges. According to
the arresting officer’s report (the accuracy of which Pulera
does not dispute), Pulera appeared drunk but exhibited
no suicidal behavior while in transit. When Pulera
arrived at the facility, the intake officer on duty, Victoria
Sarzant, and her supervisor, Dennis Zawilla, reviewed the
arresting officer’s report and placed Pulera and Burke in
temporary holding cells across from each other.

3a
Appendix A
Burke testified that he could just barely see and
hear Pulera through their respective cell doors and the
distance of the hall, but what he witnessed alarmed him.
Though the solid door muffled the sounds and the small cell
windows constrained his view, Burke saw that Pulera was
“dragging his thumb across his neck as if he was going to
harm himself” and muttering “I’ll just take myself out”
because he was “done,” all of which Burke understood
by reading Pulera’s lips. This went on for a while, and
Burke testified that unidentified officers “in the vicinity”
should have seen and heard Pulera, too. After about an
hour, though, an officer took Burke out of his holding cell
and booked him into the facility proper. Burke told the
officer who transferred him, as well as one or two others,
that he was concerned about Pulera hurting himself.
Each brushed Burke off and, a few hours later, he left
the facility.
Meanwhile, Pulera stayed in his holding cell. Although
Sarzant had reported that Pulera was cooperative,
if intoxicated, at 2 AM, he started to become more
disruptive. By 5 AM, he was standing on a bench, pounding
the door, and shouting. Based on this behavior—which
Pulera explained was because he was cold and wanted a
jacket—Sarzant held off on booking him and, near the end
of her shift, prepared a report explaining why. Sarzant
wrote that she saw no evidence Pulera was suicidal, just
combative and possibly still intoxicated. Zawilla reviewed
this report, too, and Pulera does not dispute the accuracy
of its contents either.

4a
Appendix A
After the shift change, Shane Gerber began the
booking process. He screened Pulera using a standard
form with medical and mental health questions and wrote
down that Pulera’s mother had died a month ago (but
not that she had committed suicide) and that Pulera was
prescribed medications. Pulera testified that he may have
told Gerber of his mother’s cause of death and that his
brother had also committed suicide about a year before.
The rest of the form Pulera thought accurate. It reflects
that Gerber saw no behavior suggesting a risk of suicide,
and that Pulera answered “no” when asked whether he
had ever contemplated or was presently contemplating
suicide and to a battery of questions reflecting possible
suicide risk factors.
Gerber also checked the facility’s database for a
“mental health special instruction” connected to Pulera
but found none. This procedure resulted from a 2011
policy change to reduce the risk of inmate suicides after
a string of attempts at the facility. The facility’s database
includes an instruction in the file of any arrestee who
its officials had previously placed on “level one” suicide
watch (the more restrictive and protective of the two
levels the facility recognized). If a booking officer saw
the instruction, he had to alert a supervisor, who would
then perform a second, more thorough mental health
risk assessment. During a prior stint at the facility in
2011, a crisis worker had placed Pulera on suicide watch
after he told a nurse that he felt “really depressed” and
his “mind was mess[ed] up” after his brother’s suicide.
The parties agree that the worker ordered only the less
restrictive level two watch, however, so Pulera’s file did

5a
Appendix A
not contain a special instruction in 2012. Without the
instruction, the facility’s policy required Gerber to order
the additional risk assessment only if Pulera showed signs
of contemplating suicide or had three risk factors. The
death of a family member was one such factor, but Gerber
found no others, so he placed Pulera in general population
without requesting a second look.
B. Medical Requests
Over the course of his day and a half in general
population, Pulera submitted three inmate medical
requests relating to his prescription medications—
clonazepam and tramadol. Clonazepam is a benzodiazepine
that Pulera was apparently prescribed for anti-anxiety
purposes. Tramadol is an opioid pain-reliever that he used
to treat chronic pain from a back injury.
Pulera submitted his first request a few hours after
booking, around noon on Saturday. Cleaned of spelling
errors, it said “I need my clonazepam and tramadol. My
family is dropping them off. For my pain, anxiety, and
depression.” At around 4:30, Nurse Erica Rea responded,
telling Pulera that he was under the care of the jail doctor
and that she would notify the doctor after his family
dropped off the medications.
As it turns out, Pulera’s brother, William, had brought
the prescriptions earlier that afternoon, and Rea reviewed
them minutes after responding to the request. She saw
that Pulera had refilled his prescription the day before,
so he should have used just a couple of doses. Instead,

6a
Appendix A
the bottles contained only 34 out of the expected 60
clonazepam tablets, and 81 out of 120 tramadol tablets.
She never asked, and no one ever discovered, where the
missing pills went.
A half hour later, Rea called Dr. Karen Butler, the
facility’s medical director, who worked remotely except
on Tuesdays. Rea reported the missing pills and asked
whether she should distribute Pulera’s prescriptions while
he was in the jail. Dr. Butler declined to set up a regimen
at that time and Rea noted that order in Pulera’s chart.
Testifying at her deposition, Dr. Butler explained that
she made this decision based on the missing pills, which
she believed might be a sign of abuse and could have
made further dosages dangerous. Neither Dr. Butler
nor Rea recorded these thoughts in the medical record.
Nevertheless, the jail’s written policy supported her
decision; it states, as a default rule, that non-compliant
medications would not be continued while in custody.
That evening, at around 8 PM, Pulera sent his second
request. Clarified, it read “My heart hurts. I can’t breathe.
I need my meds or I can die. My heart is pounding. They
are here, I need you to please bring me my meds ASAP.
Thank you.”
Rea’s shift had ended, so Nurse Denise Gilanyi
received this request instead. She called a correctional
officer to check on Pulera around 9 PM, and the officer
said that Pulera was in no distress: he just wanted his
medications. Gilanyi knew that Dr. Butler had decided
not to set up the medications just hours before, and that

7a
Appendix A
neither prescription was “lifesaving,” so she did nothing
further. Near the end of her shift, at 5:55 AM, she
wrote back to Pulera that the doctor had not set up any
medications.
Pulera sent the third and final request on Sunday
afternoon. This one—again cleaned up—said, “I can’t eat,
sleep. I am throwing up and I am dizzy. I can’t breathe.
I need my blood pressure taken. Please see me. My
brother and mother just died. I need my clonazepam. I am
sick.” Within minutes, the nurse on duty, Markella Reed,
responded, telling Pulera someone would check his blood
pressure. Reed testified that she based this immediate
response on her guess that Dr. Butler would order a blood
pressure check, once they talked.
Reed further testified that between receiving the
request and responding, she, like Gilanyi, had called a
correctional officer. This officer reported that Pulera was
complaining he had a cold, walking around, making phone
calls, and asking for a TV remote. Unlike Gilanyi, though,
Reed did not add this conversation to the chart when it
happened. Instead, she wrote it in a late entry the next
day, after Pulera’s suicide attempt.
When Reed called Dr. Butler, a few hours later, her
prediction proved accurate. Dr. Butler ordered a vitals
check, both to confirm Pulera’s health and to get him faceto-face with a nurse. She asked that the nurse call her if
anything abnormal came up. Reed added the doctor’s new
order to the chart.

8a
Appendix A
At 6 PM, Reed left, and Nurse Sylvia SummersSgroi started her night shift. On reviewing the chart,
Summers-Sgroi saw the order to take Pulera’s vitals
and to call Dr. Butler if anything was wrong. Around
8 PM, she met Pulera in a small room outside his cell
block. She tested and recorded his blood pressure, pulse,
respiration rate, blood oxygen level, and temperature. His
results were not abnormal, indeed, they were excellent,
and she saw nothing else concerning, so she did not call
Dr. Butler. Although they disagree on the length of their
meeting (Pulera said it lasted only a minute), both Pulera
and Summers-Sgroi agree that he did not mention any
concerns he had, let alone suicidal thoughts.
C. Suicide Attempt
Sometime around 1:45 AM on Monday, April 23,
Pulera attempted to hang himself with his bed sheets.
That night, Officer Bruce Clemens checked the cells
every thirty minutes. He passed through Pulera’s block
at 1:35 AM and noticed nothing amiss. Ten minutes later,
Clemens and another correctional officer, Duane Corso
were talking in a hallway next to the block when they
heard an inmate yell “someone’s hanging.”
Upon hearing the yell, Corso immediately started
toward Pulera’s cell door. Clemens meanwhile ran to the
guard station, which contained the controls for the cell and
hall doors. He sent out a radio alert, and Corporal Darron
Newton responded in about thirty seconds. Clemens
handed Newton an emergency knife and opened the hall

9a
Appendix A
door, so Newton could join Corso, who was awaiting backup outside Pulera’s cell, as he was trained not to enter
cells alone.
Once Newton made it to Pulera’s cell with the knife in
hand, Clemens opened the cell door for the two of them.
Corso held Pulera up while Newton cut the bedsheet down.
After Pulera was on the ground, someone called for an
ambulance at around 1:50 AM.
Summers-Sgroi was still on duty, so she was the first
medical responder. She recalled hearing the radio alert
at 1:47 and arrived around 1:50, after Pulera was on the
ground. Once she arrived at the cell, she began treating
him with an oxygen mask. His vitals improved, but he
remained unresponsive, and his eyes unfocused, so she
continued to apply oxygen until the ambulance arrived
at 1:57. By the time the sheriff’s department got to the
facility at 2:04, Pulera was already on his way to the
hospital.
Pulera suspects that he decided to attempt to kill
himself sometime after the last medication delivery of the
night, when he realized that they were still not giving him
his prescriptions. He testified that he was stressed, felt
like he was going to die because his heart was pounding,
and kept envisioning his deceased mother and brother.
He thinks he may have had withdrawal from “benzos.”
Other than through the medical requests, he did not recall
passing any of this information on to facility officials or
to his family.

10a
Appendix A
William testified differently. He said that starting
after he dropped off the medicine, Pulera frequently
called saying that he had not received his prescriptions
and was going to hurt or kill himself. Throughout the
entire weekend, William explained, he called the facility
repeatedly, trying to pass this information on. Though
William had no idea when he called the facility or with
whom he spoke, Summers-Sgroi admitted she had received
one of his calls. Well after Pulera’s suicide attempt, she
wrote in a late entry that William had called demanding
that Pulera get his clonazepam, but she transferred the
call to a correctional officer when William started yelling.
D. Procedural Background
Pulera eventually brought this suit under 42 U.S.C.
§ 1983 and state law against all the above-named officials,
as well as the private company that employed the nurses,
Visiting Nurses Community Care, Inc. (VNCC), and
Kenosha County. The county’s federal liability was
premised on Monell v. Dep’t of Soc. Servs., 436 U.S. 658,
98 S. Ct. 2018, 56 L. Ed. 2d 611 (1978). Under circuit
precedent, so was VNCC’s. See Iskander v. Vill. of Forest
Park, 690 F.2d 126, 128 (7th Cir. 1982). (Pulera named even
more defendants in the district court but has abandoned
those claims on appeal.)
Pulera’s expert on medical issues was Dr. Thomas
White, Ph.D. Dr. White opined that the nurses’ and Dr.
Butler’s indifference to Pulera caused his suicide attempt.
As a clinical psychologist, Dr. White had no expertise on
medication and lacked the authority even to prescribe

11a
Appendix A
drugs. He, therefore, admitted he could not support a
theory that, had Pulera received his prescriptions, he
would not have attempted suicide. Instead, Dr. White
contended that the lack of a face-to-face interview with
a nurse or mental health worker was a possible factor in
Pulera’s attempt, although Pulera could have also decided
to hang himself minutes before he tried. Dr. White also
denied any link between withdrawal and suicide and,
although lacking expertise in the area, he did not think
there was evidence that Pulera had suffered withdrawal
anyway.
The district court ultimately entered summary
judgment for all defendants over the course of two orders.
As an initial matter, the court concluded that Pulera was
in the facility as an arrestee because he had not yet had a
probable cause hearing on his suspected bail jumping. (A
magistrate confirmed probable cause existed for Pulera’s
arrest only the morning after his attempt.) Accordingly,
it applied a Fourth Amendment objective reasonableness
standard to the defendant’s actions, and not an Eighth
or Fourteenth Amendment standard as would apply to
convicted criminals or those detained after a probable
cause hearing, respectively.
The court first granted Dr. Butler’s motion. She
had unsuccessfully argued for an Eighth Amendment
standard, but the court concluded that even under the
Fourth Amendment, there was no genuine dispute that
her actions were objectively reasonable. Given the possible
risk of overdose, the court determined that Dr. Butler had
rationally withheld the medications and awaited specific

12a
Appendix A
reports of symptoms before deciding whether to treat
Pulera for withdrawal.
The court subsequently entered summary judgment
for the remaining defendants. The non-medical defendants
contended that a Fourteenth Amendment due process
standard applied, but the district court stuck with its
Fourth Amendment reasoning. It determined there was
no evidence to show Sarzant heard Pulera’s comments
to Burke, Gerber overlooked present signs of Pulera’s
intent to harm himself, the county’s booking policies
were constitutionally deficient, or Zawilla did anything
other than supervise. The court further concluded that
Rea properly deferred to Dr. Butler, Gilanyi and Reed
permissibly relied on officers’ reports to assess Pulera’s
complaints of physical discomfort, and Summers-Sgroi
rationally discounted William’s phone call, as Pulera
never reported suicidal thoughts to anyone at the facility.
Because no nurse’s actions were unreasonable in violation
of the Fourth Amendment, the court recognized that
VNCC and the county’s policies could not have caused
a constitutional violation for Monell purposes. Finally,
the court ruled that the response defendants reasonably
awaited back-up, which arrived within a minute or two,
before they entered Pulera’s cell and cut him down.
The court relinquished supplemental jurisdiction over
the remaining state-law claims, and Pulera appealed.

13a
Appendix A
II. DISCUSSION
We review the entry of summary judgment de novo.
Yeatts v. Zimmer Biomet Holdings, Inc., 940 F.3d 354,
358 (7th Cir. 2019). At summary judgment, the nonmovant
plaintiff must provide evidence that, when viewed in the
light most favorable to him, suffices to prove every element
of his claim for which he bears the burden of proof. Id. If
the plaintiff fails to show at least a triable issue on each
element, summary judgment is properly entered for the
defendants. Burton v. Kohn Law Firm, S.C., 934 F.3d 572,
579 (7th Cir. 2019).
As an initial matter, the parties differ on the proper
standard that governs Pulera’s claims—the Fourth or the
Fourteenth Amendment. For those suspected of crimes,
we have drawn the line between the two standards at the
probable cause hearing mandated by Gerstein v. Pugh,
420 U.S. 103, 95 S. Ct. 854, 43 L. Ed. 2d 54 (1975), and
ordinarily held within 48 hours of a warrantless arrest,
Cty. of Riverside v. McLaughlin, 500 U.S. 44, 111 S.
Ct. 1661, 114 L. Ed. 2d 49 (1991). See Lopez v. City of
Chicago, 464 F.3d 711, 719 (7th Cir. 2006). Before a finding
of probable cause, the Fourth Amendment protects an
arrestee; after such a finding, the Fourteenth Amendment
protects a pretrial detainee. Currie v. Chhabra, 728 F.3d
626, 629-30 (7th Cir. 2013).1
1. We have recognized that our distinction between pre- and
post-hearing detention may need to be revisited after the Supreme
Court, in Manuel v. City of Joliet, 137 S. Ct. 911, 197 L. Ed. 2d 312
(2017), rejected our similar distinction in the malicious-prosecution
context. See Otis v. Demarasse, 886 F.3d 639, 645 n.27 (7th Cir.

14a
Appendix A
Pulera maintains that he was an arrestee subject to
the Fourth Amendment. In the non-medical defendants’
contrary view, Pulera was properly classified as a pretrial
detainee. Although a judge conducted a Gerstein hearing
for Pulera’s bail jumping charge the day after his suicide
attempt, they argue that another judge found probable
cause to arrest him for battery in 2011 and that this
qualifies him as a pretrial detainee.
At oral argument, though, the parties all agreed
that the standards are now effectively the same for
judging the adequacy of custodial medical care under
either Amendment. Under the Fourth Amendment, an
arrestee must demonstrate that an official’s actions were
“objectively unreasonable under the circumstances.”
Estate of Perry v. Wenzel, 872 F.3d 439, 453 (7th Cir. 2017).
This objective rule is easier for a plaintiff to meet than the
subjective deliberate-indifference standard used under the
Eighth Amendment. Id. For years, we also used the more
onerous subjective approach for Fourteenth Amendment
claims relating to conditions of pretrial detention. See,
e.g., Pittman ex rel. Hamilton v. Cty. of Madison, 746
F.3d 766, 775 (7th Cir. 2014). In 2018, however, we clarified
that pretrial detainees’ medical-care claims are now
governed by an “objective unreasonableness inquiry.”
Miranda v. Cty. of Lake, 900 F.3d 335, 352 (7th Cir. 2018).
Both standards, then, are objective, and the non-medical
defendants identify no practical difference between them.

2018). Like in Otis, though, no party asks us to reconsider the
issue, so we leave it for another day.

15a
Appendix A
Accepting that concession, and without deciding
whether the standards are identical in all respects, we
see no reason to resolve whether Pulera was properly
classified as an arrestee or a detainee. Either way, it was
Pulera’s burden to provide evidence that the defendants’
actions were “objectively unreasonable” and caused
his injuries. Id. at 347, 352 (Fourteenth Amendment);
Ortiz v. City of Chicago, 656 F.3d 523, 530 (7th Cir. 2011)
(Fourth Amendment). Reasonableness, in turn, must be
determined in light of the totality of the circumstances.
See McCann v. Ogle Cty., 909 F.3d 881, 886 (7th Cir. 2018)
(Fourteenth Amendment); Florek v. Vill. of Mundelein,
649 F.3d 594, 600 (7th Cir. 2011) (Fourth Amendment).
For V NCC and the county, Pulera also must
demonstrate the elements of a Monell claim. This
means he must have evidence of “(1) an action pursuant
to a municipal policy, (2) culpability, meaning that
policymakers were deliberately indifferent to a known
risk that the policy would lead to constitutional violations,
and (3) causation, meaning the municipal action was the
‘moving force’ behind the constitutional injury.” Hall v.
City of Chicago, 953 F.3d 945, 950 (7th Cir. 2020) (citing
Board of the County Comm’rs v. Brown, 520 U.S. 397,
404-07, 117 S. Ct. 1382, 137 L. Ed. 2d 626 (1997)).
A. Intake Defendants
Pulera first contends that Burke’s testimony created
a dispute whether Sarzant was aware of his suicidal
thoughts. If Sarzant saw what Burke did, that might
be true, but she testified she did not, and no competent

16a
Appendix A
evidence contradicts her testimony. All she saw was Pulera
standing on a bench and yelling (which even he says was
because he was cold, not because he was suicidal) and that
was some time later. Critically, Burke did not identify
Sarzant as one of the officials “in the vicinity” or whom
he told of Pulera’s distressed statements and gestures,
and no other evidence places her near Pulera’s cell at
that time. All we have is an invitation to speculate that
because Burke could (barely) see and hear Pulera, so
could Sarzant. Speculation of this sort is not enough for a
plaintiff to escape summary judgment. See, e.g., King v.
Hendricks Cty. Comm’rs, 954 F.3d 981, 985 (7th Cir. 2020).
Next, Pulera argues that Gerber violated the county’s
policy by failing to review his history at the facility,
recognize that a crisis worker previously had him on suicide
watch, and order a second mental health risk assessment.
The county knew that Gerber and other booking officers
ignored its special instruction policy, Pulera asserts, yet
it allowed this noncompliance to persist.
One obvious flaw with these arguments is that Gerber
followed the county’s policy (which went beyond just the
special instruction that we focus on here). The policy
required him to obtain an extra risk assessment at
booking if an arrestee had a special instruction reflecting
that he previously had been on level one suicide watch.
Gerber checked the database, but it is undisputed that
Pulera’s history included only a level two watch, so he
did not have a special instruction. Even if Gerber had
ignored the policy, though, a violation of a jail policy is
not a constitutional violation enforceable under 42 U.S.C.

17a
Appendix A
§ 1983. See, e.g., Thompson v. City of Chicago, 472 F.3d
444, 454 (7th Cir. 2006). The only question that matters
for our purposes is whether Gerber or the county violated
the Fourth Amendment.
Pulera has failed to show a genuine dispute on that
issue. He argues that, given his answers at booking,
Gerber should have known he was at a risk of suicide.
Taking Pulera’s version of the facts, as we must, he told
Gerber that his mother and brother had both recently
committed suicide and that his doctor had prescribed
him clonazepam for depression. These scant comments
do not raise an issue of fact. “[N]ot every prisoner who
shows signs of depression ... can or should be put on suicide
watch.” Matos ex rel. Matos v. O’Sullivan, 335 F.3d 553,
558 (7th Cir. 2003). The same goes for every arrestee
who also has had recent family deaths. Id. Given Pulera’s
express statement that he was not considering suicide and
the absence of more or more significant indirect signs, no
rational jury could find that Gerber unreasonably placed
Pulera in general population.
Pulera’s theory against the county rests on his belief
that Gerber did not follow the special instruction policy
and that “ignoring a policy is the same as having no policy,”
Woodward v. Corr. Med. Servs. of Ill., Inc., 368 F.3d 917,
929 (7th Cir. 2004). The county, however, had a policy
aimed at preventing suicide that Gerber did not ignore;
one part of the policy simply did not apply to Pulera. So,
to succeed on his Monell claim, he had to show that the
county was deliberately indifferent to the risk that its
polices (or a gap in them) would cause a constitutional

18a
Appendix A
violation. Lapre v. City of Chicago, 911 F.3d 424, 430-31
(7th Cir. 2018). He has not developed this argument by, for
example, showing that county officials knew that formerly
level-two arrestees were attempting suicide at heightened
rates, and officials nevertheless made a “conscious decision
not to act.” Walker v. Wexford Health Sources, Inc., 940
F.3d 954, 966 (7th Cir. 2019). Certainly, the county could
have expanded its policy to require second screenings of
more arrestees, but the mere “existence or possibility of
other better policies ... does not necessarily mean that the
defendant was being deliberately indifferent.” Lapre, 911
F.3d at 431 (quoting Frake v. City of Chicago, 210 F.3d
779, 782 (7th Cir. 2000)).
The district court also properly entered summary
judgment for Zawilla. He is not liable under § 1983 merely
as a supervisor, even assuming his subordinates had
erred. See, e.g., Doe v. Purdue Univ., 928 F.3d 652, 664
(7th Cir. 2019). Zawilla did not have any personal contact
with Pulera and merely reviewed reports that did not
record any indications of suicide risk. Pulera presents no
contrary argument.
B. Dr. Butler
Next, Pulera argues that it was unreasonable for Dr.
Butler to deny him his prescription medications without
taking some alternative step. If she really believed he
had abused his medications, he suggests, she should have
implemented the facility’s detoxification or withdrawal
protocols.

19a
Appendix A
Pulera, however, falls short with the medical and
causation evidence. The record contains no evidence from
which a factfinder could infer that, had Pulera received
his medications, he would not have attempted suicide. His
own expert denied such a theory. Dr. Butler’s expert—Dr.
Keith Ness, M.D.—declared in his affidavit that cutting
a patient off either clonazepam or tramadol, even “cold
turkey,” was not known to make that patient suicidal,
whereas giving either drug to someone who had consumed
them in excess within the past few days could have been
dangerous. Pulera offered nothing to rebut this medical
opinion.
Dr. Butler made a reasonable decision on imperfect
information. She knew only that many of Pulera’s pills
were missing. Putting aside the facility’s policy directing
her not to set up his medications in this situation, there
was at least some chance that he had taken those pills
and giving him more could have been harmful, even
deadly. Between the option with some risk of death and
the option with no apparent risk (according to the only
medical evidence in the record), Dr. Butler chose the
latter. That choice was objectively reasonable as a matter
of law, regardless of whether Pulera had, in fact, abused
his medications.
A jury could not infer that depriving Pulera of his
medications might be deadly from the mere fact that a
physician had prescribed them to him. Pulera insists a
prescription is evidence of a “serious medical need.” See
Gutierrez v. Peters, 111 F.3d 1364, 1373 (7th Cir. 1997)
(defining term to include a need “that has been diagnosed

20a
Appendix A
by a physician as mandating treatment”). Whether
a medical need is serious, though, is just a threshold
requirement before the state has a duty under the Eighth
Amendment to provide medical care to a prisoner. Id. at
1369, 1372. We have held that there is no such threshold
under the Fourth Amendment, as the “reasonableness
analysis operates on a sliding scale, balancing the
seriousness of the medical need with the third factor—the
scope of the requested treatment.” Williams v. Rodriguez,
509 F.3d 392, 403 (7th Cir. 2007).
From what Dr. Butler and the nurses knew, Pulera’s
need for his medications was not serious relative to the
risks of his receiving them. Pulera likens his situation
to that of a diabetic deprived of insulin. Egebergh v.
Nicholson, 272 F.3d 925, 928 (7th Cir. 2001). But a diabetic
needs insulin to live. No evidence suggest that Pulera
depended on his medications to stay alive; he needed them
only to treat his pain and anxiety.
Undoubtedly, a jury could infer that the defendants
knew Pulera might become anxious or suffer chronic pain
without his medications, but he points to nothing that
would inform them that this anxiety or pain might lead him
to attempt suicide or otherwise cause harm comparable
to a risk of overdose. His reliance on Gil v. Reed, 381 F.3d
649 (7th Cir. 2004), is misplaced. We held in Gil that a
jury could infer a prison doctor’s deliberate indifference
when a specialist prescribed certain medications noting
the risks of alternative treatments, the doctor ignored
that warning, and the prisoner suffered as predicted. Id.
at 662-64. If Pulera’s primary care physician prescribed

21a
Appendix A
him clonazepam and tramadol because he was known to
be suicidal without them, that fact is missing from the
record. Based on the evidence that is in the record and
of which she was made aware, Dr. Butler reasonably
concluded the only foreseeable risk of depriving Pulera
of his prescriptions was a few days’ discomfort—a small
price to pay compared to even a low chance of overdose. All
four nurses were entitled to defer to Dr. Butler’s medical
judgment weighing the costs and benefits of these two
choices. See McCann, 909 F.3d at 887 (affirming summary
judgment for nurse who deferred to doctor’s prescription
that led to overdose).
Pulera makes much of the fact that Dr. Butler never
implemented a withdrawal or detoxification protocol,
despite her asserted belief that he was abusing his
medications. But, as Pulera himself emphasizes, Dr.
Butler knew only that it was possible that Pulera had
abused his medications. We agree with the district court
that Dr. Butler could reasonably have awaited a nurse
or correctional officer’s report of concrete symptoms
before making further treatment decisions. When Nurse
Reed did report symptoms, on Sunday evening, Dr.
Butler asked that someone check Pulera’s vitals and call
her if any abnormalities arose. She heard nothing back,
so it was reasonable for her to infer (correctly) that all
objective signs showed Pulera was fine and not suffering
withdrawal. She never had the opportunity to take this
new information into account and reassess Pulera’s
medication regimen because of his attempt a few hours
later.

22a
Appendix A
C. The Nurse Defendants
Moving on to the individual nurses’ actions, we
agree with the district court that Nurse Rea reasonably
responded to Pulera’s first medical request, which did
not give her notice of any serious problems, let alone a
risk of suicide. Pulera simply asked that she deliver his
medications “for [his] pain, anxiety, and depression.”
He did not even mention symptoms. Indeed, contrary to
Pulera’s argument, he did not say he was depressed, only
that the pills were for depression. Any rational factfinder
would see this message the way Rea did: as a simple
request for medicine. She reasonably responded to that
request by telling Pulera he would receive his medications,
if Dr. Butler approved them. She then gave Dr. Butler all
the information necessary to decide not to approve them.
The request that Pulera sent to Nurse Gilanyi
did include symptoms—physical symptoms. Pulera
complained that his heart was pounding and hurt, that he
could not breathe, and that he needed his medications or
he could die. That Pulera was concerned about dying, or
even that he might have been having an anxiety attack, did
not put Gilanyi on notice that he might be contemplating
suicide. The request signaled that he feared dying not
from self-harm, but from a heart attack or lack of oxygen.
A correctional officer was qualified to confirm that Pulera
was, in fact, breathing and not apparently in cardiac
arrest, so it was reasonable for Gilanyi to ask one to do
so and rely on his assessment. Like in Florek, 649 F.3d
at 600, summary judgment was proper because Pulera’s
“outward appearance did not put officers on notice” of his

23a
Appendix A
condition despite his complaints of serious symptoms. (And
unlike Florek, who did suffer a heart attack, there is no
evidence those serious symptoms ever manifested.) With
the officer’s confirmation that Pulera was fine and just
wanted his medications, Gilanyi appropriately responded
that the doctor had not prescribed them. The Fourth
Amendment requires that arrestees receive reasonable
care, not specific care, no matter how many times they ask.
Id. at 600-01 (citing Jackson v. Kotter, 541 F.3d 688, 697
(7th Cir. 2008)); see also Williams v. Ortiz, 937 F.3d 936,
944 (7th Cir. 2019) (same under Fourteenth Amendment).
Pulera resists the comparison to Florek and instead
bases his argument on Belbachir v. Cty. of McHenry, 726
F.3d 975 (7th Cir. 2013). We recognized in Belbachir that “[a]
severely depressed person who has hallucinations, acute
anxiety, and feelings of hopelessness and helplessness
and who cries continually, talks incessantly of death, and
is diagnosed as suicidal, is in obvious danger.” Id. at 982.
Pulera’s request, though, did not put Gilanyi on notice of
any of these facts or anything similar. At most, one might
be able to infer she had notice that Pulera was suffering
“acute anxiety,” but we affirmed summary judgment for
the nurse who knew only of Belbachir’s anxiety and panic
attacks and not her other issues. Just like that nurse,
Gilanyi was not even negligently responsible for a suicide
risk that Pulera never told her about. Id.
Regarding Nurse Reed, Pulera argues that her calling
a correctional officer to check on him was an unreasonable
response to his third medical request. Just like the second,
though, Pulera’s most pressing assertion was that he could

24a
Appendix A
not breathe. A call to a correctional officer to physically
check on him was one reasonable way for Reed to confirm
that Pulera was not in immediate danger. 2
Pulera’s third request admittedly went further
than his second and mentioned other symptoms—he
was vomiting, dizzy, and just generally sick—but Nurse
Reed, too, went further than relying on the correctional
officers’ report. She informed Pulera that someone would
check his blood pressure and called Dr. Butler, who
expanded it to a full vitals check. This was a reasonable
response to Pulera’s remaining complaints, which while
certainly worthy of investigation, were not an apparent
emergency. Cf. Gayton v. McCoy, 593 F.3d 610, 621 (7th
Cir. 2010) (noting that “[v]omiting, in and of itself, is not
an uncommon result of being mildly ill, and, absent other
circumstances ... does not amount to an objectively serious
medical condition” under the Eighth Amendment). At the
vitals check, Pulera would be face-to-face with a nurse who
could see his symptoms and hear anything he had to say.
When Nurse Summers-Sgroi performed the check,
she saw nothing wrong and Pulera admits he never said a
thing about other symptoms or suicidal thoughts. Pulera
bases his claim against her on his brother William’s phone
2. Although the timeline surrounding this call to the
correctional officer is jumbled, Pulera does not develop an
argument that Reed did not in fact call the officer. Even if he
disputed whether she had, though, Pulera would still have a
problem with causation. A delayed response to Pulera’s reported
symptoms might be concerning, but there is no evidence that
Pulera’s injuries resulted from those symptoms.

25a
Appendix A
call. Summers-Sgroi contends that this call did not give
her notice of a risk of suicide because all she heard was
yelling about clonazepam before she transferred the
call. William, though, disputed this story; he says he told
whoever he spoke with that Pulera was suicidal and never
admitted yelling. That this call came from an outside
source does not “refute the receipt of notice.” Ortiz, 656
F.3d at 533.
Still, even under Pulera’s version of the facts, it was not
objectively unreasonable for Summers-Sgroi to discount
the call. Though no one knows whether she received the
call before or after the vitals check (or even Pulera’s
attempt), at best she had either just seen Pulera or was
just about to see him. When confronted with a healthy
patient who mentioned no problems and an outside caller
saying the patient was distraught, a reasonable nurse
could believe her own observations over the phone call.
Indeed, that is precisely what we suggested the defendant
who answered the phones in Ortiz should have done,
given a jail’s understandable hesitance to accept medical
requests from outside sources. Id. at 529. Summers-Sgroi
saw Pulera and observed no reason whatsoever to believe
Pulera was suicidal—Pulera admits he did not tell her he
was suicidal and does not contest her determination that
his vitals were “excellent.” Under these circumstances, it
was not unreasonable for her to take no special precautions
against his attempted suicide.
Because Pulera’s individual claims against the nurses
fail, so too must his Monell claims against VNCC and
the county. Although individual liability is not always a

26a
Appendix A
prerequisite for municipal liability, see Glisson v. Ind.
Dep’t of Corr., 849 F.3d 372, 378 (7th Cir. 2017) (en banc),
Pulera argues only that the facility inadequately trained
its nurses and had a de facto policy permitting them to
delegate all their duties to correctional officers. Even
assuming Pulera could prove the training inadequate
or the lax policy unconstitutional, he cannot show
causation. See id. at 379 (“The central question is always
whether an official policy, however expressed ... caused
the constitutional deprivation.”). The nurses acted
appropriately under the circumstances, both generally
and to the extent they relied on correctional officers,
so their alleged lack of training and overreliance on
officers could not have caused Pulera’s injuries. See City
of Los Angeles v. Heller, 475 U.S. 796, 799, 106 S. Ct.
1571, 89 L. Ed. 2d 806 (1986) (per curiam) (“If a person
has suffered no constitutional injury ... the fact that the
departmental regulations might have authorized the
use of constitutionally excessive force is quite beside the
point.”).
D. Response Defendants
Finally, Pulera contends that the district court erred
in entering summary judgment for officers Clemens,
Corso, and Newton. In his view, the officers violated his
rights when they wasted seconds waiting for back-up
before entering his cell, cutting him down, and calling an
ambulance.
No rational jury could agree with Pulera’s hindsightladen assessment of the officers’ actions. “The Fourth

27a
Appendix A
Amendment requires reasonableness, not immediacy.”
Sallenger v. City of Springfield, 630 F.3d 499, 504 (7th
Cir. 2010). Even with the delays Pulera criticizes, it
is undisputed that the officers sprang into action, had
the pressure off his neck in less than two minutes, and
summoned an ambulance in less than five, by which
time Summers-Sgroi was already providing emergency
treatment. Perhaps the officers could have acted faster, but
the Constitution does not demand perfection. See id.; see
also Florek, 649 F.3d at 600 (“[T]he Fourth Amendment
reasonableness inquiry necessarily takes into account the
sufficiency of the steps that officers did take”). Nor does
it demand that a correctional officer enter a potentially
dangerous situation before back-up can arrive. Giles v.
Tobeck, 895 F.3d 510, 514 (7th Cir. 2018) (per curiam).
Under the totality of the chaotic circumstances, the
officers’ swift actions were indisputably reasonable and
preclude a finding that they violated Pulera’s constitutional
rights.
III. CONCLUSION
It is unfortunate that Pulera attempted to kill himself
and fortunate that he did not succeed. That a tragedy
almost happened under the watch of jail officers, though,
does not mean the officers are responsible. All that one
can expect—and all the Constitution demands—is that
officials respond reasonably to the situation presented.
Because there is no genuine dispute that all the defendants
here did so, we AFFIRM the judgment of the district
court.

28a
Appendix B —Appendix
ORDER B
of the UNITED
STATES DISTRICT COURT FOR THE EASTERN
DISTRICT OF WISCONSIN, FILED June 13, 2019
UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF WISCONSIN
Case No. 15-C-461
ZACHARY PULERA,
Plaintiff,
v.
VICTORIA SARZANT, et al.,
Defendants.
June 12, 2019, Decided
June 13, 2019, Filed
William C. Griesbach, Chief United States
District Judge.
ORDER GRANTING REMAINING DEFENDANTS’
MOTIONS FOR SUMMARY JUDGMENT
This case arises out of the unsuccessful suicide attempt
of Plaintiff Zachary Pulera in the early morning hours of
April 23, 2012, while he was an inmate at the Kenosha
County Jail. Pulera attempted to hang himself with a
bed sheet. Alerted by one of the prisoners on Pulera’s

29a
Appendix B
cellblock, correctional officers were able to cut him down
before he expired, but not before he lost consciousness
and became unresponsive. Pulera was transported to
the Neuro-Intensive Care Unit at Froedtert Hospital
in Milwaukee where he was revived. Claiming that his
suicide attempt was caused by the deliberate indifference
and/or negligence of the correctional and health care
staff of the jail, Pulera commenced this action against
the County; the Sheriff; various administrative staff
members, supervisors, and correctional officers; and
the doctor, nurses, and their respective employers with
whom the County contracted to provided health care to
inmates, along with their insurers. According to his second
amended complaint, Pulera seeks monetary damages for,
inter alia, serious emotional and psychological distress;
permanent brain damage and memory problems; pain
and suffering; loss of wages and earning capacity; cost
of medical care; treatment and services; and loss of
enjoyment of life. Second Amended Compl., Dkt. No. 59
at ¶ 145.
A fter a series of delays caused by difficulties
encountered by the plaintiff in identifying the various
defendants, the case was transferred to the undersigned
in December 2017. Since that time, various claims and
some of the defendants have been dismissed on motion
or by stipulation. On January 9, 2019, the court granted
summary judgment in favor of Dr. Karen Butler, the
physician employed by Advanced Correctional HealthCare,
Inc. (ACH), who was providing medical care to inmates at
the time of Pulera’s attempted suicide. Presently before
the court are the motions for summary judgment of

30a
Appendix B
the remaining defendants. These include Nurses Erica
Rea, Denise Gilanyi, Markella Reed, Sylvia SummersSgroi, and Lyndsay Hauck (collectively, the Nurse
Defendants); their employer Visiting Nurse Community
Care, Inc. (VNCC); VNCC’s insurer Cincinnati Specialty
Underwriters Insurance Company; Correctional Officers
Victoria Sarzant, Shane Gerber, Dennis Sawilla, Bruce
Clemens, Duane Corso, Darron Newton, Cheryl Slater,
Dennis Remus, Robert Pallamolla, Charles Smith,
Marck Schlecht, and David Beth (collectively, the County
Defendants); Kenosha County and its insurer Wisconsin
Municipal Mutual Insurance Company; and ACH. For the
reasons that follow, those motions will also be granted.
BACKGROUND
In the early morning of April 21, 2012, Pulera was
arrested on a charge of felony bail jumping for violating
the conditions of his bond by consuming alcohol. Pulera
had been released on bail in October of 2011 on a state
charge of Battery to a Law Enforcement Officer, in
violation of Wis. Stat. § 940.20(2). Pulera arrived at the
Kenosha County Jail around 2:00 a.m. following his arrest
on April 21. At intake, the transporting officer observation
report and a medical/mental screening visual observation
report were completed. The report stated that Pulera did
not exhibit any risk or harmful behavior during the arrest
or transport, that he did not make any suicidal gestures
or statements during the arrest or transport, and that
he was prescribed Clonazepam and Tramadol. Dkt. No.
186-1 at 1, 3. Pulera was initially placed in a holding cell at
the jail to sober up because he was intoxicated. The Zone

31a
Appendix B
One Protective Holding Report noted that intoxication
and/or drug use was suspected and that Pulera was
uncooperative, combative, and seemed to have difficulty
or an inability to follow instructions. Pulera later pounded
on the door, claiming he was cold, and Correctional
Officer (CO) Victoria Sarzant gave him a jacket. Sarzant
completed a protective holding report, which stated that
Pulera was not suicidal.
The conclusion that Pulera was not suicidal while in
the holding cell is disputed by Pulera’s cousin Edward
Burke, who was arrested with Pulera for driving under the
influence. Burke testified that he was placed in a holding
cell across the hallway from Pulera and saw him drag
his thumb across his throat, which Burke interpreted as
a suicidal gesture. Burke also stated that Pulera made
several statements to the effect of “I’m done; it’s over,”
Burke Depo. at 14:1-6, 14:23-15:3, Dkt. No. 202-26 at 5,
which he also interpreted as meaning he intended to harm
himself. Burke claims that he told multiple correctional
officers of his concern but was unable to specifically
identify any officer to whom he conveyed such information.
Once they were removed from the holding area, Burke,
who was released from custody that morning, had no
further contact with Pulera.
At 7:00 a.m., Admission & Release Specialist Shane
Gerber began the booking process for Pulera. Gerber
reviewed the intake documents and confirmed that Pulera
did not have an MH-1 Special Instruction, a computer
entry that indicates whether the inmate had previously
been placed on a Level 1 Suicide Watch. Gerber then

32a
Appendix B
conducted a booking interview with Pulera and asked
him questions from a medical questionnaire form. Pulera
responded “no” to the following questions: “[h]ave you
ever attempted or contemplated suicide” and “are you
contemplating suicide now.” Dkt. No. 185-1 at 1. Pulera
was then placed in a general population cell located in the
H-Block section of Zone 5.
Pulera had answered two of the questions differently
when he was booked into the Jail in October 2011. At that
time, he stated he had been in a mental institution in
Kenosha for “drug problems” three years earlier and that
“a long time ago” he had contemplated suicide. Dkt. No.
202-7 at 1. There is also evidence that he had been on Level
1 Suicide Watch during that period of incarceration at the
Kenosha County Jail. On October 7, 2011, Pulera was seen
by a crisis worker for “depressed mood/anxiety.” Dkt. No.
202-8 at 1. He tearfully reported experiencing depression
over the fact that his brother had killed himself a month
earlier. The crisis worker reported that Pulera “verbally
contract[ed] for his safety,” was advised of the services
her agency provided, and agreed to tell the guards if he
started to feel depression. The report further states,
“They are going to take him from Level 1 down to Level
2 Watch.” Id. But this was more than six months before
the events giving rise to Pulera’s current claims.
With respect to his incarceration that began in the
early morning hours of April 21, 2012, Pulera submitted
the first of three inmate medical requests (IMR) at 12:15
p.m. It read, “I need my [Clonazepam] and my [Tramadol].
My family is dropping them off. For my pain [illegible

33a
Appendix B
word] and [depression].” Dkt. No. 202-18 at 1. Nurse
Andrea Rae responded as follows to his request: “While
you are here you are under the care of the jail M.D. You
will be notified of the medications brought in.” Id. Pulera’s
prescription medications, Clonazepam and Tramadol,
were dropped-off by Pulera’s brother at the jail at 2:35
p.m. Nurse Rae counted the pills and determined that 26
of the Clonazepam pills and 39 of the Tramadol pills were
missing from the containers even though the prescriptions
had been filled the previous day. Rae spoke with Dr.
Karen Butler regarding Pulera’s medication, and was told
by Dr. Butler not to make the prescriptions available to
Pulera because of the significant number of missing pills.
Although Pulera’s brother testified that he called several
times and spoke to nursing and correctional staff about
Pulera’s request for medication, Pulera’s depression, and
the possibility of Pulera’s suicide, he was unable to identify
the person or persons to whom he spoke.
Pulera submitted a second IMR at 8:10 p.m. stating,
“My [heart] [hurts]. I can’t [breathe]. I need my [meds] or
I can die. My heart is pounding they are here. I need you
to please bring me my [meds] A.S.A.P. Thank you.” Dkt.
No. 202-19 at 1. After receiving this IMR, Nurse Denise
Gilanyi spoke with Pulera’s zone officer who reported that
he was not in any distress, and responded to Pulera’s IMR
as follows: “The jail MD has not set up any medications
at this time.” Id.
The following day, April 22, 2012, Pulera submitted his
third and final IMR at 2:30 p.m. stating, “I can’t eat, sleep.
I am [throwing] up and I am dizzy. I can’t [breathe]. I need

34a
Appendix B
my blood [pressure] [taken], please see me. My brother
and mother just died. I need my [Clonazepam]. I am sick.”
Dkt No. 202-20 at 1. Nurse Markella Reed asked a CO to
see how Pulera was doing and was told that Pulera was
walking around, making phone calls, and speaking with
other inmates. Reed responded “[y]our blood pressure
will be checked,” id., and contacted Dr. Butler at 4:45
p.m. to discuss Pulera’s medical condition and IMR. Dr.
Butler ordered that Pulera’s vitals be taken and any
abnormalities be reported back to her. At 8:00 p.m., Nurse
Sylvia Summers-Sgroi checked Pulera’s temperature,
pulse, respiration, blood pressure, and heart rate and did
not find them to be abnormal.
At 1:45 a.m. on April 23, 2012, CO Bruce Clemens and
CO Duane Corso heard a commotion in Zone 5, where
Pulera was housed, followed by yelling by an inmate in
Pulera’s block that someone is hanging. Clemens went
to the nearby control room to open the H-block door and
request assistance over the jail’s radio system while Corso
went through the now open H-block door to Pulera’s cell.
During approximately the next 30 seconds, jail supervisor
Darron Newton arrived, obtained a 911 knife from
Clemens from where it was stored in the control room,
went to Pulera’s cell along with Clemens, entered Pulera’s
cell, and cut the bed sheet that Pulera was using to hang
himself while Clemens and Corso attempted to take the
pressure off the ligature around Pulera’s neck. After
cutting Pulera down and placing him on the ground, 911
was called at 1:47 a.m., and Nurse Summers-Sgroi arrived
at Pulera’s cell to provide him emergency medical care.

35a
Appendix B
LEGAL STANDARD
Summary judgment should be granted when the
moving party shows that there is no genuine issue as to
any material fact and that the moving party is entitled to
judgment as a matter of law. Fed. R. Civ. P. 56(a). In other
words, the time and expense of the parties and the court
should not be wasted on a trial when there are no material
facts in dispute, one party is entitled to judgment on those
facts, and thus there is nothing to try. In deciding a motion
for summary judgment, all reasonable inferences are
construed in favor of the nonmoving party. Foley v. City
of Lafayette, 359 F.3d 925, 928 (7th Cir. 2004). The party
opposing the motion for summary judgment must “submit
evidentiary materials that set forth specific facts showing
that there is a genuine issue for trial.” Siegel v. Shell
Oil Co., 612 F.3d 932, 937 (7th Cir. 2010) (quoted source
and internal quotation marks omitted). “The nonmoving
party must do more than simply show that there is some
metaphysical doubt as to the material facts.” Id. “[A]
‘metaphysical doubt’ regarding the existence of a genuine
fact issue is not enough to stave off summary judgment,
and ‘the nonmovant fails to demonstrate a genuine issue
for trial where the record taken as a whole could not lead
a rational trier of fact to find for the non moving party.”
Outlaw v. Newkirk, 259 F.3d 833, 837 (7th Cir. 2001)
(quoting Logan v. Commercial Union Ins. Co., 96 F.3d
971, 978 (7th Cir. 1996)). Summary judgment is properly
entered against a party “who fails to make a showing
sufficient to establish the existence of an element essential
to the party’s case, and on which that party will bear the
burden of proof at trial.” Parent v. Home Depot U.S.A.,

36a
Appendix B
Inc., 694 F.3d 919, 922 (7th Cir. 2012) (internal quotation
marks omitted) (quoting Celotex Corp. v. Catrett, 477 U.S.
317, 322, 106 S. Ct. 2548, 91 L. Ed. 2d 265 (1986)).
ANALYSIS
A. 	The Nurse Defendants and VNCC
Pulera’s remaining claims against the Nurse
Defendants and VNCC are: 1) deliberate indifference to
his mental health needs in violation of his rights under both
the United States and Wisconsin constitutions; 2) a Monell
claim against VNCC; and 3) state law negligence against
VNCC. Pulera’s negligence and State constitutional claims
will be addressed at the end of the court’s order.
1.

U.S. Constitutional Claims Against the Nurse
Defendants

The Fourth Amendment governs the treatment of
arrestees during the period of confinement between arrest
without a warrant and a probable cause determination.
Villanova v. Abrams, 972 F.2d 792, 797 (7th Cir. 1992).
The Due Process Clause of the Fourteenth Amendment
governs from the probable cause determination until
conviction for a crime, at which point the Cruel and
Unusual Punishment Clause of the Eighth Amendment
applies. Bell v. Wolfish, 441 U.S. 520, 531, 99 S. Ct. 1861,
60 L. Ed. 2d 447 (1979). In the court’s order granting Dr.
Butler’s motion for summary judgment, Dkt. No. 169,
the court applied the Fourth Amendment’s objective
unreasonableness standard to Pulera’s constitutional

37a
Appendix B
claims against her because it appeared that he was not in
federal custody and no evidence was offered that either
a federal or state judicial officer had determined there
was probable cause that authorized Pulera’s custody at
the time of the events giving rise to the action. Dkt. No.
169 at 11. Neither the defendants nor the plaintiff have
submitted any evidence since that time showing that
Pulera’s status at the time of the events at issue was
otherwise. Consequently, the court will analyze Pulera’s
constitutional claims under the Fourth Amendment’s
objective unreasonableness standard.
Under the Fourth Amendment, “[t]he issue is whether
the state actor’s response to the arrestee’s medical needs
was objectively unreasonable and caused the harm of
which the arrestee complains.” Currie v. Chhabra, 728
F.3d 626, 631 (7th Cir. 2013) (internal quotations and
brackets omitted). In deciding whether a state actor’s
response to such a plaintiff’s medical needs was objectively
unreasonable, courts look to four factors: “(1) whether
the officer has notice of the detainee’s medical needs; (2)
the seriousness of the medical need; (3) the scope of the
requested treatment; and (4) police interests, including
administrative, penological, or investigatory concerns.”
Ortiz v. City of Chicago, 656 F.3d 523, 530 (7th Cir. 2011).
The key issue in a case such as this is notice: “the intuitive,
organizing principle is that police must do more to satisfy
the reasonableness inquiry when the medical condition
they confront is apparent and serious and the interests of
law enforcement in delaying treatment are low.” Florek
v. Vill. of Mundelein, 649 F.3d 594, 600 (7th Cir. 2011).
Thus, the key question as to each individual defendant is

38a
Appendix B
whether he or she had notice that Pulera was suicidal. The
court will address each of the Nurse Defendants in turn.
a. 	Erica Rea
Nurse Rea’s actions—counting Pulera’s medications
after they were dropped off at the jail by his brother,
speaking with Dr. Butler regarding the significant number
of missing pills in his prescriptions, and responding to
Pulera’s first IMR—were objectively reasonable under
the circumstances. Pulera’s IMR stated, “I need my
[Clonazepam] and my [Tramadol]. My family is dropping
them off. For my pain [illegible word] and [depression].”
Dkt. No. 202-18 at 1. The IMR did not notify Rea
that Pulera currently felt depressed, was having any
suicidal thoughts, or was experiencing any symptoms of
withdrawal from being denied access to his medications.
Although Pulera states that his brother informed the
guards when dropping of his medication that Pulera was
feeling depressed and that two of his family members
had just passed away, there is no indication in the record
that this information was relayed or directly told to Rea.
Even if it was, however, Rea was justified in relying upon
Pulera’s own statements and responses to questions put to
him by the correctional and healthcare staff. In any event,
the decision to deny Pulera access to his medications was
made by Dr. Butler, not by Rea, and the court has already
concluded that Dr. Butler’s decision was reasonable
given the substantial number of pills missing from the
prescriptions which had been filled the previous day. Dkt.
No. 169 at 11-12. Rea was not authorized to give Pulera
his medications without Dr. Butler’s permission as it is

39a
Appendix B
the policy of the jail “that the management of chemically
dependent inmates is individualized under the direction of
the jail Physician.” Dkt. No. 150-13 at 1. Finally, Pulera’s
own expert, Dr. White, did not think that Rea’s actions
were unreasonable:
Yeah, I think the first nurse [Rea] that really
just collected up the bottles, and counted them,
and called Doctor Butler, and, you know, said,
half of them are missing, I mean, I think she
could have been more forthcoming in terms of
her response to the inmate, . . . I think it was
fine.
Dr. White Depo. at 176:2-8, Dkt. No. 180-2 at 8. Because
there was no indication in her interactions with Pulera
that he was at serious risk to attempt suicide, Nurse
Rea’s actions were not objectively unreasonable. See
Belbachir v. Cty. of McHenry, 726 F.3d 975, 982 (7th Cir.
2013) (nurse’s failure to prevent plaintiff from committing
suicide not objectively unreasonable when the nurse had
no knowledge that plaintiff was suicidal).
b. 	Denise Gilanyi
Nurse Gilanyi’s actions were likewise objectively
reasonable. Gilanyi received Pulera’s second IMR that
stated, “My [heart] [hurts]. I can’t [breathe]. I need my
[meds] or I can die. My heart is pounding they are here.
I need you to please bring me my [meds] A.S.A.P. Thank
you.” Dkt. No. 202-19 at 1. In response, Gilanyi spoke
with Pulera’s zone officer who reported he was not in any

40a
Appendix B
distress and that he just wanted his medications. Dkt.
No. 138-1 at 2. Gilanyi then responded to Pulera’s IMR
as follows: “The jail MD has not set up any medications
at this time.” Dkt. No. 202-19 at 1. Pulera’s IMR did
not portray any thoughts of suicidal ideation, but only
expressed physical discomfort. More importantly, upon
observation by an officer, Pulera did not exhibit any signs
of distress. Again, there was no report that Pulera was
threatening or even suggesting suicide. Although Pulera
argues that Gilanyi’s reliance on the officer’s observations
is inappropriate, he cites no law in support of this
assertion. Gilanyi’s reliance on the officer’s assessment
and subsequent actions were not unreasonable as Pulera’s
IMR and the officer’s observations did not give notice to
Gilanyi that there was a significant likelihood that he may
imminently seek to take his own life.
c.

Markella Reed

Nurse Reed’s actions were also objectively reasonable.
Reed responded to Pulera’s third IMR that stated,
“I can’t eat, sleep. I am [throwing] up and I am dizzy.
I can’t [breathe]. I need my blood [pressure] [taken],
please see me. My brother and mother just died. I need
my [Clonazepam]. I am sick.” Dkt No. 202-20 at 1. Reed
responded, “Your blood pressure will be checked,” id.,
and his vitals were checked later that day after Reed’s
shift ended. Reed also took efforts to check on Pulera’s
condition, speaking with an officer after receiving Pulera’s
IMR who stated that Pulera was walking around, making
phone calls, and asking for the remote, and did not appear
to be in any apparent distress. Further, Reed spoke with

41a
Appendix B
Dr. Butler, and was advised to order Pulera’s vital signs
be checked and that any abnormalities be reported.
When Pulera’s vitals were checked after Reed’s shift,
they appeared normal. Pulera’s complaints of physical
pain and discomfort did not give notice to Reed that he
posed an imminent risk of harm to himself. See Estate of
Novack v. Cty. of Wood, 226 F.3d 525, 530 (7th Cir. 2000)
(“[S]trange behavior alone, without indications that that
behavior has a substantial likelihood of taking a suicidal
turn, is not sufficient to impute subjective knowledge of a
high suicide risk to jail personnel.”). Pulera points out that
all of the nurses, including Reed, had access to Pulera’s
medical files that document the mental health concerns
that arose more than six months earlier when Pulera was
in custody. But those records showed Pulera’s mental
condition in early October of 2011, not on April 23, 2012.
The prior records also showed that Pulera knew how to
get help when he thought he needed it. From the time of
his arrest early on April 21, Pulera gave no indication he
was thinking of harming himself to any of the nursing
staff he has sued for failing to prevent him from doing so
less than forty-eight hours later. They cannot be faulted
for failing to read his mind.
d.

Sylvia Summers-Sgroi

For t he sa me rea sons a s t he ot her nu r ses,
Nurse Summers-Sgroi’s actions were not objectively
unreasonable. Summers-Sgroi took Pulera’s vitals and
found them to be normal. Pulera had the opportunity at
that time to tell Nurse Summer-Sgroi about anything that
was bothering him, but said nothing. He exhibited no signs

42a
Appendix B
that he posed an imminent risk to commit suicide, nor
did he express to her that he was contemplating suicide.
Although Pulera contends that Summers-Sgroi should
have known he was suicidal as she spoke with his brother
over the phone and was informed as much, Pulera did not
report he was suicidal at intake, did not indicate he was
suicidal on the medical/mental health screening form,
never stated in any of his IMRs that he was suicidal, and
never directly told Summers-Sgroi, or any of the other
nurses for that matter, that he was suicidal. Further, when
she took Pulera’s vitals there were no signs or indications
that he was contemplating or at risk of committing
suicide. Consequently, her actions were not objectively
unreasonable.
e.

Lyndsay Hauck

Nurse Hauck did not have any contact with Pulera
during any of her shifts during the time pertinent to this
case. In addition, Pulera stated in his response brief that
he “does not dispute dismissal of Lyndsay Hauck from
the case.” Pl.’s Resp., Dkt. No. 199 at 1 n.1. Accordingly,
Hauck will be dismissed as a defendant.
2. Monell claim against VNCC
Monell established that a municipality may be
liable under § 1983 for money damages only if the
unconstitutional act that harmed the plaintiff was “caused
by (1) an official policy adopted and promulgated by its
officers; (2) a governmental practice or custom that,
although not officially authorized, is widespread and

43a
Appendix B
well settled; or (3) an official with final policy-making
authority.” Haywood v. Wexford Health Sources, No. 16CV-3566, 2017 U.S. Dist. LEXIS 28416, 2017 WL 783000,
at *2 (N.D. Ill. Mar. 1, 2017) (citing Thomas v. Cook Cty.
Sheriff’s Dep’t, 604 F.3d 293, 303 (7th Cir. 2010)). Although
VNCC is a private corporation that has contracted with
the Wisconsin Department of Corrections, it is subject
to a Monell claim just like a municipality would be. See,
e.g., Minix v. Canarecci, 597 F.3d 824, 832 (7th Cir. 2010).
Pulera’s claim that VNCC’s failure to adequately
train its nurses “to provide adequate care to depressed
patients undergoing withdrawal symptoms,” Pl.’s Resp.
Br., Dkt. No. 199 at 22, and its “de facto policy of allowing
medical staff to rely on medically untrained correction
staff to assess medical issues,” id. at 25-26, violated his
constitutional rights fails because “a municipality cannot
be liable under Monell when there is no underlying
constitutional violation by a municipal employee.”
Sallenger v. City of Springfield, Ill., 630 F.3d 499, 504
(7th Cir. 2010); Jenkins v. Bartlett, 487 F.3d 482, 492
(7th Cir. 2007) (“Although a municipality may be directly
liable for constitutional violations by its officers when
the municipality evinces a deliberate indifference to the
rights of the plaintiff by failing to train adequately its
officers to prevent the violation, there can be no liability
under Monell for failure to train when there has been
no violation of the plaintiff’s constitutional rights.”). As
the court has found that the Nurse Defendants’ actions
did not violate Pulera’s constitutional rights, there is no
underlying violation which was caused by VNCC’s alleged
failure to train. The Nurse Defendants provided adequate

44a
Appendix B
care to Pulera based on the information they had available
and Pulera has presented no case that a nurse’s reliance
on observations of correctional officers in the course of
care of inmates violates an inmate’s constitutional rights.
In addition, Pulera has not provided evidence that there
is a pattern of constitutional violations by the Nurse
Defendants. Pulera’s single-incident liability argument,
hypothesized by the Supreme Court in Canton v. Harris,
489 U.S. 378, 109 S. Ct. 1197, 103 L. Ed. 2d 412 (1989),
is untenable. There, “[t]he Court sought not to foreclose
the possibility, however rare, that the unconstitutional
consequences of failing to train could be so patently
obvious that a city could be liable under § 1983 without
proof of a pre-existing pattern of violations.” Connick v.
Thompson, 563 U.S. 51, 64, 131 S. Ct. 1350, 179 L. Ed. 2d
417 (2011). Pulera’s argument fails, however, as the VNCC
defendants have undergone training and the specific
circumstances surrounding their care for Pulera is more
nuanced, distinguishing the situation at hand from the one
hypothesized in Canton. See Connick, 563 U.S. at 67 (“A
second significant difference between this case and the
example in Canton is the nuance of the allegedly necessary
training.”). Accordingly, summary judgment is granted in
favor of VNCC with respect to Pulera’s Monell claim. And
since the claims against VNCC and the Nurse Defendants
fail, it necessarily follows that the claims against their
insurer, Cincinnati, fail as well.
B. 	The County Defendants
Pulera’s remaining claims against the County
Defendants are: 1) violation of his United States and

45a
Appendix B
Wisconsin constitutional rights by the individual County
Defendants; 2) a Monell claim against Kenosha County;
and 3) state law negligence against the County Defendants.
The County Defendants contend, as a threshold argument,
that they are not liable for Pulera’s deliberate attempt to
kill himself as a matter of law because their failure to act
did not cause his injuries or, alternatively, for reasons of
public policy. County Defs.’ Br. in Opp., Dkt. No. 182 at
11-12. Noting the apparent incompatibility between the
notion that mentally sane individuals are responsible for
their own deliberate actions and the premise underlying
Pulera’s lawsuit that the guards who failed to prevent
him from harming himself should be held liable to him
in money damages for the harm he caused, the County
Defendants argue Pulera’s claims against them should
be dismissed as a matter of law. See Taylor v. Wausau
Underwriters Ins. Co., 423 F. Supp. 2d 882, 887-90 (E.D.
Wis. 2006).
The Seventh Circuit has rejected this argument,
however, noting that while “‘competent persons’ have
a due-process ‘right to refuse lifesaving hydration and
nutrition,’ . . . this right does not extend to incarcerated
persons who have been deemed incompetent.” Miranda
v. Lake Cty., 900 F.3d 335, 349 (7th Cir. 2018) (quoting
Washington v. Glucksberg, 521 U.S. 702, 723, 117 S. Ct.
2258, 117 S. Ct. 2302, 138 L. Ed. 2d 772 (1997)). Rather,
the court has held that for those incarcerated, “jails have
a duty ‘to prevent the prisoner from giving way’ to the
‘unusual psychological strain’ caused by incarceration.”
Id. (quoting Freeman v. Berge, 441 F.3d 543, 547 (7th Cir.
2006)). This argument therefore fails and the court will

46a
Appendix B
turn to the question whether Pulera has evidence capable
of supporting his claims.
1.

U. S. Constitutional Claims Against the
Individual County Defendants

Pulera’s claims against the County Defendants will
also be analyzed under the Fourth Amendment’s objective
unreasonableness standard as discussed earlier. Although
the County Defendants assert that Pulera had a probable
cause determination, they point only to the hearing held on
October 12, 2011, that was in relation to an October 4, 2011
charge for battery to law enforcement officers, firefighters,
or commission wardens. The County Defendants have
not provided any evidence that a probable cause hearing
was held in relation to Pulera’s April 21, 2012 arrest.
Consequently, Pulera’s constitutional claims are governed
by the Fourth Amendment.
a. 	Pulera’s Initial Intake and Screening
i.

Victoria Sarzant

Officer Sarzant’s actions towards Pulera while he was
in a holding cell were not objectively unreasonable. Pulera
spoke with Sarzant and informed her that he was cold,
and she provided him with a jacket. Sarzant completed a
Zone One Protective Holding Report that indicated Pulera
was not suicidal, and she was never made aware of any
suicidal behavior or thoughts by Pulera during the time
that she directly interacted or was responsible for Pulera.
Although Pulera states that he communicated suicidal

47a
Appendix B
thoughts to a person in an adjacent holding cell, there is
no evidence that Sarzant overhead these communications
or was otherwise directly made aware of them. Further,
Pulera stated that he never communicated this directly
to Sarzant. In addition, Pulera cannot establish that
Sarzant’s treatment of him caused him any harm, which
is necessary to state a claim under § 1983. Whitlock v.
Brueggemann, 682 F.3d 567, 582 (7th Cir. 2012) (stating
§ 1983 “must be read against the background of tort
liability,” including that “the act must be the cause-infact of the injury, i.e., the injury would not have occurred
absent the conduct”) (internal quotations and citations
omitted). Sarzant saw Pulera at booking in the early
morning hours of April 21; his attempted suicide did not
occur until almost forty-eight hours later. Consequently,
the motion for summary judgment is granted with respect
to Sarzant.
ii.

Shane Gerber

Pulera’s claim against Officer Gerber fails for similar
reasons. During Pulera’s intake interview with Gerber,
Pulera stated that he has never contemplated suicide and
that he was not currently contemplating suicide. There
were no statements or actions by Pulera that would have
notified Gerber that he posed an imminent suicide risk
during his interaction with him. Although Pulera asserts
that Gerber’s actions were objectively unreasonable
because he did not check Pulera’s prior incarceration
records, as noted above, those records would only have
informed Gerber of his condition some six months earlier
in October of 2011, not April of 2012. Asking Pulera

48a
Appendix B
about his condition directly was a more reasonable way
of determining his condition at that time. In addition, as
was the case with Sarzant, Pulera cannot establish that
Gerber’s actions directly caused him harm, since they
occurred more than forty-eight hours before he attempted
to take his life. Accordingly, summary judgment is
granted in regards to Gerber.
iii. 	Dennis Zawilla
“‘[Section] 1983 does not allow actions against
individuals merely for their supervisory role of others,’
Zimmerman v. Tribble, 226 F.3d 568, 574 (7th Cir. 2000),
[because] ‘[i]ndividual liability under 42 U.S.C. § 1983 can
only be based on a finding that the defendant caused the
deprivation at issue.’” Palmer v. Marion Cty., 327 F.3d
588, 594 (7th Cir. 2003) (quoting Kelly v. Mun. Courts
of Marion Cty., 97 F.3d 902, 909 (7th Cir. 1996)). Zawilla
was the third shift supervising officer who signed off on
Pulera’s intake reports and oversaw Sarzant and Gerber.
Because Pulera cannot establish that Zawilla’s actions
deprived him of his rights or acted in a manner besides
his supervisory role of Gerber and Sarzant, summary
judgment is granted in favor of Zawilla.
b.

Response to Pulera’s Suicide Attempt

Bruce Clemens, Duane Corso, and Darron Newton’s
responses to Pulera’s suicide attempt were not objectively
unreasonable. Upon hearing a commotion in Zone 5,
where Pulera was housed, Clemens went to the control
room to open the H-Block door and requested emergency

49a
Appendix B
assistance over the radio. At the same time, Corso
proceeded towards Pulera’s cell, manually opening one
door and then proceeding through the door opened by
Clemens to Pulera’s cell. After Corso arrived at Pulera’s
cell, Newton arrived, obtained a 911 knife from Clemens
in the control room, and arrived at Pulera’s cell about
fifteen to twenty seconds after Corso had arrived.
Clemens proceeded to open the cell door, and then Corso
lifted Pulera up while Newton cut the ligature that was
strangling Pulera. Following this, emergency responders
were contacted, and Summers-Sgroi arrived at the scene
as a result of Clemen’s earlier call.
Although Pulera criticizes Clemens’ decision to
remain in the control room, he did so to open doors that
allowed the officers access to his cell and to request
emergency assistance over the radio that is heard by all
correctional officers and nurses in the jail. Regarding
Corso’s decision not to enter Pulera’s cell until another
officer was present, Corso testified officers are trained
not to enter cells alone for their own safety. “There is
‘no rule of constitutional law [that] requires unarmed
officials to endanger their own safety in order to protect
a prison inmate.’” Arenas v. Calhoun, 922 F.3d 616, 621
(5th Cir. 2019) (quoting Longoria v. Texas, 473 F.3d 586,
594 (5th Cir. 2006)). Corso also testified that he was
concerned, given Pulera’s position in relation to the door,
that if he were to reach into Pulera’s cell that it would
prevent the cell door from opening, further delaying
officers. Unlike the officers in Estate of Miller, ex rel.
Bertram v. Tobiasz, 680 F.3d 984 (7th Cir. 2012), here
medical attention was called for by Clemens over the

50a
Appendix B
radio to the jail nurses once he was aware that Pulera
needed medical attention. Further, immediately after the
officers addressed the more pressing issue of rescuing
Pulera from his suicide attempt, they contacted outside
emergency responders. In addition, as opposed to taking
four minutes to prepare a cell entry, the officers that saved
Pulera responded to his suicide attempt in under a minute.
Other courts addressing this issue have observed that
“[t]he Constitution does not require an individual officer
to intervene immediately in an apparent suicide without
sufficient support where doing so would jeopardize his own
safety.” Arenas, 922 F.3d at 624. “All that can be expected
is that guards act responsibly under the circumstances
that confront them,” Riccardo v. Rausch, 375 F.3d 521,
525 (7th Cir. 2004), and here Clemens, Corso, and Newton
did so: upon being alerted to Pulera’s suicide attempt, the
officers responded quickly and cut him down promptly.
Consequently, summary judgment is granted in favor of
Clemens, Corso, and Newton.
c.

Cheryl Slater, Dennis Remus, Robert
Pallamolla, Charles Smith, Mark Schlecht,
and David Beth

The plaintiff does not dispute dismissal of Cheryl
Slater, Dennis Remus, Robert Pallamolla, Charles Smith,
Mark Schlecht, and David Beth. Pl.’s Resp. Br., Dkt No.
203 at 1 n.1. Accordingly, the County Defendants’ motion
for summary judgment is granted with respect to these
defendants and they are dismissed.

51a
Appendix B
2.

Violation of 42 U.S.C. § 1983 by Kenosha County
under Monell

Pulera’s Monell claim against Kenosha County that
it has failed to adequately train Admission & Release
Specialists or correctional officers that come into contact
with suicidal inmates fails for similar reasons as his claim
against VNCC: the actions of Kenosha County’s employees
did not result in a violation of Pulera’s constitutional rights.
Further, while Pulera claims alleged shortcomings in
Kenosha County’s policies and practices, he has presented
no evidence that the alleged problems have resulted in a
pattern of consistent failures to provide constitutionally
adequate care for prisoners. Although Pulera also points
to a memo issued in February of 2011 by Captain Falduto
of the Kenosha County Jail in response to a series of
attempted suicides, “[t]he bare fact that other inmates
attempted suicide does not demonstrate that the jail’s
policies were inadequate, that officials were aware of any
suicide risk posed by the policies or that officials failed to
take appropriate steps to protect [an inmate].” Pittman
ex rel. Hamilton v. Cty. of Madison, Ill., 746 F.3d 766,
780 (7th Cir. 2014). Consequently, the County Defendants’
motion for summary judgment will be granted with
respect to Pulera’s Monell claim.
C. Advanced Correctional Healthcare, Inc.
ACH asserts that Pulera’s sole remaining claim
against it—liability under Monell—should be dismissed
on the merits because Pulera cannot prove an underlying
constitutional act by its employee, Dr. Butler. Pulera did

52a
Appendix B
not file a response to ACH’s motion, and has stipulated
to entry of summary judgment in favor of ACH. ACH
Stipulated Facts at ¶ 4, Dkt. No. 192. Accordingly, ACH’s
motion for summary judgment will be granted.
D. Wisconsin Constitutional Claims
The Wisconsin Supreme Court generally interprets
“provisions of the Wisconsin Constitution consistent with
the Supreme Court’s interpretation of parallel provisions
of the federal constitution.” State v. Ninham, 2011 WI 33,
¶ 45, 333 Wis. 2d 335, 797 N.W.2d 451. Because the court
has found that the defendants’ actions were not in violation
of the United States Constitution, and Pulera has not put
forth any argument that the defendants’ actions violated
protections provided by the Wisconsin Constitution that
are not provided by the federal Constitution, Pulera’s
Wisconsin constitutional claims against the defendants
will be dismissed.
E. Negligence Claims against VNCC and The County
Defendants
Pulera argues that VNCC owed him a duty to provide
medical care due to its custodial relationship and that
its failure to provide that care contributed to his suicide
attempt that resulted in his injuries. VNCC contends that
it cannot be found liable under the doctrine of superseding
cause because Pulera’s intentional suicidal act breaks
the line of causation. Regarding the County Defendants,
Pulera alleges that they owed him a duty to protect him
from self-harm and their failure to take action caused

53a
Appendix B
his suicide attempt that resulted in his significant brain
damage. Although governmental employees are usually
immune for acts that involve the application of discretion
or judgment, Pulera asserts that the County Defendants
are not immune because “(1) the conduct involved a nondiscretionary, ministerial duty imposed by law and; (2)
there existed a known present danger to Pulera of such
force that the time, mode, and occasion for performance
left no room for the exercise of judgment.” Pl.’s Resp. Br.,
Dkt. No. 203 at 26.
Having determined that Pulera’s federal claims should
be dismissed on summary judgment, the court will decline
to exercise jurisdiction over Pulera’s remaining state law
claims. “A federal court’s decision to exercise supplemental
jurisdiction over state law claims is discretionary.”
Coleman v. City of Peoria, No. 18-1742, 925 F.3d 336,
2019 U.S. App. LEXIS 15598, 2019 WL 2240575, at *12
(7th Cir. May 24, 2019). “Absent unusual circumstances,
district courts relinquish supplemental jurisdiction over
pendent state law claims if all claims within the court’s
original jurisdiction have been resolved before trial.”
Id. As all of Pulera’s claims within the court’s original
jurisdiction have been dismissed, Pulera’s state law claims
for negligence are dismissed without prejudice for lack of
federal jurisdiction.
CONCLUSION
For the foregoing reasons, the defendants’ motions for
summary judgment, Dkt. Nos. 171 (The Nurse Defendants
and VNCC), 181 (The County Defendants), and 190 (ACH),

54a
Appendix B
are GRANTED with respect to Pulera’s federal claims
and the Clerk is directed to enter judgment in favor of
the defendants, dismissing Pulera’s federal claims with
prejudice. The court declines to exercise jurisdiction
over Pulera’s remaining state law claims, and they are
DISMISSED without prejudice.
SO ORDERED this 12th day of June, 2019.
/s/ William C. Griesbach		
William C. Griesbach, Chief Judge
United States District Court

55a
Appendix C AND ORDER OF
APPENDIX C — DECISION
THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF WISCONSIN,
DATED JANUARY 9, 2019
UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF WISCONSIN
Case No. 15-C-461
ZACHARY PULERA,
Plaintiff,
v.
VICTORIA SARZANT, et al.,
Defendants.
DECISION AND ORDER ON MOTIONS FOR
PARTIAL SUMMARY JUDGMENT
In the early morning hours of April 23, 2012, Zachary
Pulera tried to hang himself with a bedsheet while
being held in custody at the Kenosha County Jail for a
probation violation. Fortunately, his suicide attempt was
unsuccessful. Alerted by one of the prisoners on Pulera’s
cellblock, correctional officers were able to cut him down
before he expired, but not before he lost consciousness
and became unresponsive. Pulera was transported to
the Neuro-Intensive Care Unit at Froedtert Hospital in
Milwaukee where he was revived.

56a
Appendix C
Claiming that his suicide attempt was caused by
the deliberate indifference and/or negligence of the
correctional and health care staff of the jail, Pulera
commenced this action against the County, the Sheriff,
and various administrative staff members, supervisors
and correctional officers, including two unknown County
employees identified as John Doe 1 and 5, who work in
the jail. ECF No. 1 at ¶¶ 7-18, 20-22. Pulera’s original
complaint also named as defendants Visiting Nurse
Community Care, Inc. (VNCC), a private health care
company that contracted with the County to provide
nursing and other health care services to jail inmates,
along with John Does 2 through 4 who were described
as employees of VNCC and/or the County who worked at
the jail and were “responsible for the safe, secure, and
humane treatment of all Kenosha County Jail inmates,
including Pulera, on April 21, 2012.” Id. ¶¶ at 19, 23. Pulera
claimed that the deliberate indifference of the County
and its employees (collectively, the County Defendants)
to his serious medical/mental health needs constitutes
“cruel and unusual punishment” proscribed by the
Eighth Amendment to the United States Constitution and
Article I, section 6 of the Wisconsin Constitution. Id. at
¶¶ 92, 96. The complaint also asserted state common law
negligence claims against the County Defendants, VNCC,
and John Does 2 through 4. Id. at ¶¶ 111, 116. Based upon
these allegations, Pulera sought monetary damages for,
inter alia, serious emotional and psychological distress;
permanent brain damage and memory problems; pain
and suffering; loss of wages and earning capacity; cost
of medical care; treatment and services; and loss of
enjoyment of life. Id. at ¶ 119.

57a
Appendix C
The VNCC nurses were subsequently identified in
a second amended complaint as Sylvia Summers-Sgroi,
Erica Rea, Denise Gilanyi, Markelle Reed, and Lyndsay
Hauck (collectively Nurse Defendants). In addition, Dr.
Karen Butler, who provided medical services to jail
inmates under a contract with her employer, Advanced
Correctional HealthCare, Inc. (ACH), along with ACH
were added as defendants. Pulera’s negligence claims
against Dr. Butler and ACH have since been dismissed
but his deliberate indifference claim against Dr. Butler
and his Monell claims against ACH remain. The court
has jurisdiction over Pulera’s § 1983 claims pursuant
to 28 U.S.C. § 1331 and supplemental jurisdiction over
his state law claims pursuant to 28 U.S.C. § 1367. The
case is before the court on the motion of VNCC and the
Nurse Defendants for partial summary judgment and Dr.
Butler’s motion for summary judgment on all claims. For
the reasons that follow, the motion of VNCC and the Nurse
Defendants will be granted-in-part. Counts I and II will
be dismissed as to VNCC, and Count V will be dismissed
as to the Nurse Defendants. Dr. Butler’s motion will be
granted in full and all claims against her will be dismissed.
LEGAL STANDARD
Summary judgment is appropriate when the movant
shows there is no genuine issue of material fact and the
movant is entitled to judgment as a matter of law. Fed. R.
Civ. P. 56(a). In deciding a motion for summary judgment,
the court must view the evidence and make all reasonable
inferences that favor them in the light most favorable
to the non-moving party. Johnson v. Advocate Health

58a
Appendix C
& Hosps. Corp., 892 F.3d 887, 893 (7th Cir. 2018) (citing
Parker v. Four Seasons Hotels, Ltd., 845 F.3d 807, 812 (7th
Cir. 2017)). The party opposing the motion for summary
judgment must “submit evidentiary materials that set
forth specific facts showing that there is a genuine issue
for trial.” Siegel v. Shell Oil Co., 612 F.3d 932, 937 (7th Cir.
2010) (citations omitted). “The nonmoving party must do
more than simply show that there is some metaphysical
doubt as to the material facts.” Id. Summary judgment
is properly entered against a party “who fails to make a
showing to establish the existence of an element essential
to the party’s case, and on which that party will bear the
burden of proof at trial.” Austin v. Walgreen Co., 885
F.3d 1085, 1087-88 (7th Cir. 2018) (citing Celotex Corp. v.
Catrett, 477 U.S. 317, 322, 106 S. Ct. 2548, 91 L. Ed. 2d
265 (1986)).
BACKGROUND
Pulera was arrested in the early morning of April 21,
2012, on a charge of felony bail jumping for violating the
conditions of his bond by consuming alcohol. Dr. Butler
was the physician for the Kenosha County Pre-Trial
Facility at the time Pulera was detained there under a
contract the County had with ACH. The County also had
a contract with VNCC, which provided nursing services
to inmates. The Nurse Defendants were all employees of
VNCC who worked at the jail during the time of Pulera’s
confinement. Dr. Butler was physically present at the
facility one day a week, generally on Tuesdays, and could
be reached via telephone when not physically present at
the facility. When she worked remotely, Dr. Butler did

59a
Appendix C
not have access to patient medical records and relied on
the medical staff present at the facility to report to her
the relevant information when making medical decisions.
A medical screening of Pulera was conducted when
he entered the facility on April 21, 2012. The screening
indicated that Pulera appeared to be under the influence of
intoxicants, but there were no indications that he appeared
to be anxious or depressed.
At some point in the afternoon of April 21, 2012,
Pulera submitted a health service request (HSR) that
stated “I need my [Clonazepam] and my [Tramadol]. My
family is dropping them off. For my pain, [anxiety], and
[depression].” ECF No. 150-4 at 2. Dr. Butler had received
a prescription for both of those medications prior to his
arrest. Later that day, at 4:35 p.m., a nurse responded
“[w]hile you are here you are under the care of the jail Md.
Jail MD will be notified of medications brought in.” Id.
Dr. Butler was first contacted by the nurses at the
facility regarding Pulera via telephone around 5:00
p.m. on April 21, 2012. Earlier that day Pulera’s family
dropped off his two prescriptions at the facility—one
for Clonazepam and one for Tramadol. It is routine for
the nurses at the facility to count and log the number of
pills for a prescription that is dropped off and compare
it to the prescribed amount to be taken and the date the
prescription was filled so that Dr. Butler can determine
whether a patient may have access to their medication
while at the facility. Both of Pulera’s prescriptions had
been filled one-day prior on April 20, 2012. Pulera’s

60a
Appendix C
Clonazepam prescription called for him to take one tablet
twice a day. When the nurses conducted their count,
twenty-six of the original sixty pills were gone. Pulera’s
Tramadol prescription called for him to take two tablets
twice a day. Thirty-nine of the original 120 tablets were
gone when the nurses conducted their count. Dr. Butler
declined to allow Pulera access to his medication, given
the discrepancy between the number of pills remaining in
his prescriptions and the number that were unaccounted
for given the prescribed dosage.
Later that day Pulera submitted a second HSR that
stated “[m]y [heart hurts]. I [cannot] breath[e]. I need my
[medications] or I can die. My [heart] is pounding. They
are here. I need you to please bring me my [medications]
[A.S.A.P.]. Thank you.” ECF No. 150-4 at 2. At 5:55 a.m.
on April 22, 2012, a nurse responded “[t]he jail MD has not
set up any medications at this time.” ECF No. 150-4 at 2.
Pulera submitted his third and final HSR around 2:20
p.m. on April 22, 2012. It stated “I [cannot] eat, sleep. I am
[throwing] up and I am dizzy. I [cannot] breathe. I need
my blood [pressure] [taken], please see me. My brother
and mother just died. I need my [Clonazepam]. I am sick.”
ECF No. 150-5 at 1. Dr. Butler was contacted in response
to this HSR and ordered that Pulera’s vitals be checked
and that she be contacted again if any abnormalities were
found. A nurse informed Pulera that his vitals would be
checked in response to his HSR. Pulera’s vitals were taken
at 8:00 p.m. that evening and showed no indications that
anything was wrong. Pulera attempted to commit suicide
by trying to hang himself in his cell around 1:40 a.m. on
April 23, 2012.

61a
Appendix C
Pulera claims that VNCC, the Nurse Defendants, and
Dr. Butler violated his constitutional rights by failing to
respond to his medical/mental health needs. He specifically
claims that Dr. Butler “refused to place Pulera back on his
medication on April 22nd, failed to place him on required
protocols for alcohol or withdrawal, and failed to take any
other action after ordering Pulera’s vitals taken.” Pl.’s
Resp., ECF No. 147 at 11. Pulera also claims that VNCC
and the Nurse Defendants were negligent in their failure
to properly respond to his mental health needs while he
was held at the Kenosha County Jail.
ANALYSIS
A. VNCC and the Nurse Defendants
The second amended complaint appears to assert four
separate claims against VNCC and the Nurse Defendants.
Count I alleges that the defendants collectively violated
Pulera’s rights under the Fourth, Eighth, and Fourteenth
Amendments to the United States Constitution in their
“deliberate indifference to and complete failure to address
Pulera’s serious medical/mental health needs . . . .” ECF
No. 59 at ¶ 102. Count II asserts essentially the same
claim against the defendants collectively under Article I,
section 6 of the Wisconsin Constitution. Counts I and II
also include allegations suggesting that they also include
claims under Monell v. New York City Dept. of Social
Services, 436 U.S. 658, 98 S. Ct. 2018, 56 L. Ed. 2d 611
(1978), which of course makes no sense for defendants
sued in their individual capacities. Id. at ¶¶ 103-06,
109-11. Apparently for this reason, and because Count

62a
Appendix C
III expressly asserts a Monell claim against all of the
defendants, the parties have construed Counts I and II as
not including Monell claims and Count III as applying to
only the corporate or policy-making defendants. Finally,
Count V asserts a claim for negligence against VNCC
and the Nurse Defendants. In their motion for partial
summary judgment, VNCC and the Nurse Defendants
seek dismissal of Count V in its entirety and Counts I
and II as to VNCC.
VNCC asserts that Pulera’s § 1983 claims against it
in Counts I and II of Pulera’s second amended complaint
alleging that it is liable for the Nurse Defendants’
deliberate indifference under a theory of respondeat
superior should be dismissed because “[r]espondeat
superior liability does not apply to private corporations
under § 1983.” Shields v. Ill. Dep’t of Corr., 746 F.3d 782,
789 (7th Cir. 2014). Even though Count II arises under
the Wisconsin Constitution, the same argument applies
since the Wisconsin Supreme Court interprets the parallel
provision of the state constitution consistently with the
United States Supreme Court’s interpretation of the
Eighth Amendment. State v. Ninham, 2011 WI 33, ¶ 45,
333 Wis. 2d 335, 797 N.W.2d 451 (“Generally, we interpret
provisions of the Wisconsin Constitution consistent with
the Supreme Court’s interpretation of parallel provisions
of the federal constitution.”). Pulera concedes the point in
any event and agrees that under Shields, Counts I and II
should be dismissed as to VNCC. Pl.’s Resp., ECF No. 129
at 4. Given the unequivocal holding of Shields and Pulera’s
concession, the court grants the Defendants’ motion for
partial summary judgment with respect to VNCC in
Counts I and II of Pulera’s second amended complaint.

63a
Appendix C
Defendants next argue that Pulera’s negligence claims
contained in Count V of his second amended complaint
should be dismissed in their entirety. Regarding the
Nurse Defendants, they argue that Pulera’s negligence
claim against them is barred by the statute of limitations
because the Nurse Defendants, originally named as John
Does in Pulera’s complaint, were not identified and named
by Pulera until August 29, 2016—more than a year after
the statute of limitations ran—and that Pulera’s second
amended complaint does not relate back to his timely
filed initial complaint. Pulera again does not contest the
defendants’ argument and concedes that his negligence
claims against the Nurse Defendants are barred by
the statute of limitations. Accordingly, the court grants
the defendants’ motion for partial summary judgment
with respect to Count V as to the Nurse Defendants.
Notwithstanding his concession that his negligence claims
against the individual Nurse Defendants are barred by
the three-year statute of limitations, Pulera argues that
his negligence claim against VNCC in Count V remains.
Pulera argues that VNCC is vicariously liable for the
actions of the Nurse Defendants under the doctrine of
respondeat superior and that VNCC was more generally
negligent in its own right in failing to supervise and train
its employees to provide proper medical/mental health
care. VNCC, on the other hand, argues that because
the negligence claims against VNCC’s employees are
dismissed, there is no longer any basis upon which
VNCC can be held liable in negligence. VNCC contends
that Pulera’s respondeat superior claim against VNCC
is wholly dependent on the alleged negligent acts of
the Nurse Defendants. See Kerl v. Dennis Rasmussen,

64a
Appendix C
Inc., 2004 WI 86, ¶ 18, 273 Wis. 2d 106, 682 N.W.2d 328
(“Vicarious liability under respondeat superior is ‘liability
that a supervisory party (such as an employer) bears for
the actionable conduct of a subordinate or associate (such
as an employee) because of the relationship between the
two parties.’” (quoting Black’s Law Dictionary 927 (7th
ed.1999)). Because Pulera has conceded his underlying
negligence claim against the Nurse Defendants is time
barred, rendering their conduct no longer actionable,
VNCC contends that there is no underlying act for which
VNCC can be vicariously liable for under the doctrine of
respondeat superior.
VNCC’s argument is unconvincing. Pulera’s negligence
claims against the individual Nurse Defendants are
barred because he failed to sue them within the time
allowed under the statute of limitations. The same is not
true of VNCC. VNCC was named in the original complaint
that was filed within the three-year statute of limitations,
and so that defense is not available to it. The fact that
Pulera’s claims against the Nurse Defendants whose
conduct allegedly renders VNCC liable via respondeat
superior are time barred does not mean that his claim
against VNCC is time barred. It just means they cannot
be held liable, not that they were not negligent. See, e.g.,
Hedquist v. Merrill Lynch, Pierce, Fenner & Smith, Inc.,
272 Ga. 209, 210, 528 S.E.2d 508 (Ga. 2000) (“A dismissal
with prejudice of the action against the allegedly negligent
employee does not impose a bar to further litigation
against the vicariously liable employer because the
dismissal with prejudice adjudicates only the non-liability
of that defendant to the plaintiff [and] is not the equivalent

65a
Appendix C
of a judgment rendered in favor of the plaintiff against the
defendant.”) (internal quotation omitted); see also Martin
v. Mid-Cal. Express, 2003 OK CIV App 106, ¶ 18, 83 P.3d
898 (“We hold, consistent with the rules pronounced above,
that even though the statute of limitations has run as to
the servant/tortfeasor, thus rendering him immune from
further suit, Plaintiff may nonetheless continue to pursue
a claim against the vicariously liable master.”). There is
no reason to believe that Wisconsin law is otherwise. In
addition, the second amended complaint also alleges that
VNCC is negligent in its own right in failing to properly
train nurses and ensure that only competent nurses were
providing the care it contracted to provide. ECF No. 59
at ¶ 130. VNCC is therefore not entitled to dismissal of
Count V just because Pulera is barred by the applicable
statute of limitations from asserting a claim against the
Nurse Defendants.
Alternatively, VNCC argues that Pulera’s negligence
claim should be dismissed because neither VNCC nor
the nurses it employed are subject to the Wisconsin
statute governing medical malpractice claims. Although
Count V is entitled “negligence” against the Nurse
Defendants, VNCC notes that the second amended
complaint erroneously alleged that the Nurse Defendants
were “Health Care Providers pursuant to Wis. Stat.
§ 655.001.” ECF No. 59 at ¶ 127. Based on this allegation,
VNCC argues that Count V is actually a claim for medical
malpractice under Chapter 655 of the Wisconsin Statutes.
Since neither VNCC, nor the Nurse Defendants are
“health care providers” as that term is defined by the
statute, VNCC argues that Pulera’s claim fails.

66a
Appendix C
The fact that the Nurse Defendants are not covered
by Wisconsin’s medical malpractice statute does not
mean they cannot be liable for negligence, however. It
simply means that whatever liability they may have is not
governed by Chapter 655. The reference to Section 655.001
in the complaint does not preclude a claim for common law
negligence. “The point of a notice pleading standard is that
the plaintiff is not required to plead either facts or legal
theories.” Hefferman v. Bass, 467 F.3d 596, 599 (7th Cir.
2006). Pulera alleged in his second amended complaint
that VNCC and the Nurse Defendants
were negligent at all times material hereto in
that they, among other things, failed to provide
Pulera with medical/mental health care despite
his serious need for medical/mental health
treatment and medications; failed to respond
to appropriate Inmate Medical Requests;
failed to appropriately train nurses/medical
professionals in how to deal with individuals
with serious medical/mental health issues;
failed to ensure that only competent nurses
and/or medical professionals were providing
medical care; failed to address open and obvious
deficiencies in health care; and were otherwise
negligent.
ECF No. 59 at ¶ 130. This is a statement of a common
law negligence claim regardless of whether Chapter
655 applies. For this reason as well, VNCC’s motion for
summary judgment as to Count V will be denied.

67a
Appendix C
B. Dr. Butler
Unlike VNCC and the Nurse Defendants, Dr. Butler
seeks summary judgment on the merits of Pulera’s claim
against her. She claims that the undisputed facts establish
her right to judgment of dismissal as a matter of law.
At the outset, however, the parties dispute what
standard governs Pulera’s constitutional claim against
Dr. Butler. Pulera argues that because he was arrested
without a warrant and there is no evidence in the
record that there was any probable cause determination
related to his arrest, see ECF No. 150-2 at 3-4, his claim
against Butler should be analyzed under the Fourth
Amendment. The Seventh Circuit has held that “‘the
Fourth Amendment governs the period of confinement
between arrest without a warrant and the [probable cause
determination],’ [Villanova v. Abrams,] 972 F.2d 792, 797
(7th Cir. 1992), and [the court has] since applied the Fourth
Amendment’s ‘objectively unreasonable’ standard to . . .
‘medical care’ claims brought by arrestees who have not
yet had their Gerstein hearing.” Currie v. Chhabra, 728
F.3d 626, 629-30 (7th Cir. 2013). On the other hand, Dr.
Butler argues that Pulera was being held on a probation
hold issued by the U.S. Marshal, which implies he had
previously been convicted of a crime, and thus the Eighth
Amendment applies. ECF No. 149 at ¶ 3.
Of course, the U.S. Marshal does not issue probation
holds. It appears from this court’s records, of which I
take judicial notice, that Pulera was awaiting sentencing
in federal court for distribution of heroin at the time of

68a
Appendix C
his arrest, but was not in federal custody. See United
States v. Zack Pulera, Case No. 11-cr-47-PP-10, ECF
No. 129. Although it would be a matter of record, Dr.
Butler has offered no evidence that either a federal or
state judicial officer had determined there was probable
cause and authorized Pulera’s custody at the time of the
events giving rise to the action. I will therefore analyze
Pulera’s claim under the Fourth Amendment objective
reasonableness standard.
Pulera’s claim fails to satisfy even this standard. Dr.
Butler’s refusal to place Pulera back on his medication
was not unreasonable given the significant discrepancy
between the number of pills that should have been in his
prescription bottles had he complied with the instructions
of his doctor and the actual count. For this reason, and
in the absence of any indication he was planning to
harm himself, Pulera’s criticism amounts to little more
than hindsight. According to the nurse’s count, his
prescriptions, which had been filled just hours before
his arrest, were short twenty-four Clonazepam pills and
thirty-five Tramadol pills from the number there should
have been had he been properly taking his medications.
This fact, together with his reported abuse of alcohol at
the time of his arrest, reasonably warranted the decision
to at least initially withhold the medication.
Pulera’s own expert does not dispute that the initial
decision to withhold the medication was reasonable. Dr.
White essentially claims that Dr. Butler should have taken
additional steps to insure that Pulera was not experiencing
drug withdrawal or had need for a substitute medication.

69a
Appendix C
ECF No. 150-9 at 2. But this hardly shows her decision
to put a hold on his medication was unreasonable. If
Pulera’s problems had persisted, Dr. Butler might well
have done more. But Pulera was arrested in the early
morning hours of April 21, 2012, a Saturday. Dr. Butler
was first contacted regarding Pulera later that day at
approximately 5:00 p.m. for guidance on the medications
that had been dropped off for him. ECF No. 149 at ¶¶ 15,
16. Based on Pulera’s apparent noncompliance with the
instructions as to prescribed doses, Dr. Butler concluded it
would be dangerous to allow him access to his medications
and directed the nurse not to dispense them to Pulera.
Dr. Butler was not contacted again until the following
day, Sunday, April 22, 2012, at 4:45 p.m. At that time, a
nurse presumably conveyed to her Pulera’s health services
request reporting that he was unable to eat or sleep, and
that he was throwing up, dizzy, and could not breathe. He
stated he needed his blood pressure checked and reported
his brother and mother had just died, and he needed his
Clonazepan. ECF No. 150-5 at 1. Dr. Butler instructed
the nurse to check Pulera’s vitals and report back if
there was anything abnormal. Pulera’s records reflect
his blood pressure, pulse respiratory rate, temperature,
and oxygen level was checked at 8:00 p.m. and found to be
within normal limits. ECF No. 149 at ¶¶ 37-39. That was
the last contact Dr. Butler had concerning Pulera until
after his suicide attempt in the early morning hours of
April 23, 2012. At no time did Pulera suggest to anyone at
the Kenosha County Jail that he was thinking of harming
himself, and no such report was ever communicated to
Dr. Butler. Id. at ¶ 57. In fact, his only complaints were

70a
Appendix C
over physical discomfort, and his request that his blood
pressure be checked suggests that he wanted to live.
Under these circumstances, there was no reason for Dr.
Butler to conclude he was in need of immediate mental
health treatment.
Pulera also argues that Butler failed to follow two
established jail procedures and that, as a result, her
treatment of him was unreasonable. More specifically,
Pulera cites the procedures for treatment of inmates
suffering from alcohol or drug intoxication and withdrawal.
Both policies set forth that treatment under the policies be
determined based on individualized needs and symptoms
of the patient. Policy—J-G-06 Intoxication & Withdrawal,
ECF No. 150-12 at 1 (“All inmates are screened for alcohol/
drug use and withdrawal. Initial treatment is based on
clinical assessments that are completed by the medical
staff.”); Policy—J-G-08 Inmates With Alcohol & Other
Drug Problems, ECF No. 150-13 at 1 (“It is the policy
of these facilities that the management of chemically
dependent inmates is individualized under the direction
of the jail Physician according to the substance abused
and the degree of dependence.”). Given that Pulera was
under observation by correctional officers, was observed
by them to be “quiet, cooperative and compliant offering
no obvious indication of having any problems,” ECF No.
150-8 at 6, and did not display objective signs that he was
going through withdrawal, Butler’s treatment of Pulera
was reasonable.
Simply put, when Butler made her decision there were
no signs that Pulera was suffering from a serious mental

71a
Appendix C
health condition and no reason to expect that denying
him access to his medication would lead to his attempted
suicide. As Pulera’s expert acknowledges, “[Pulera] did
not have to receive his medication simply because he
asked for it, and staff cannot be expected to respond to
information not documented to be reported to them.” ECF
No. 150-8 at 10. Although Dr. Butler did not proceed to the
jail and inquire of Pulera what happened to the missing
medication at the time she first was told of it, her choice
not to does not render her April 21, 2012 decision to deny
Pulera access to his medication at that time unreasonable.
See Florek v. Village of Mundelein, Ill., 649 F.3d 594, 600
(7th Cir. 2011) (holding under the Fourth Amendment’s
reasonable analysis that officer’s decision to not give
arrest suspect aspirin when “her outward appearance did
not put officers on notice of her medical condition” was
reasonable as there is no requirement to “provide what
hindsight reveals to be the most effective medical care”);
see also Jackson v. Kotter, 541 F.3d 688, 697 (7th Cir. 2008)
(the Constitution is not a medical code requiring officers
to administer or allow specific treatments). It thus follows
that Pulera’s claim against Dr. Butler fails. Dr. Butler’s
motion for summary judgment is therefore granted.
CONCLUSION
For the foregoing reasons, VNCC and the Nurse
Defendants’ motion for partial summary judgment (ECF
No.116) is GRANTED-IN-PART. Counts I and II are
dismissed as to VNCC, and Count V is dismissed as to
the Nurse Defendants. Dr. Butler’s motion for summary
judgment (ECF No. 135) is GRANTED in its entirety.

72a
Appendix C
SO ORDERED this 9th day of January, 2019.
/s/ William C. Griesbach
William C. Griesbach, Chief Judge
United States District Court

73a
APPENDIX D —Appendix
ORDER D
OF THE UNITED
STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT, FILED AUGUST 17, 2020
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 19-2291
ZACHARY PULERA,
Plaintiff-Appellant,
v.
VICTORIA SARZANT, et al.,
Defendants-Appellees.
Chicago, Illinois 60604
August 17, 2020
Before
JOEL M. FLAUM, Circuit Judge
AMY C. BARRETT, Circuit Judge
AMY J. ST. EVE, Circuit Judge
Appeal from the United States District Court for the
Eastern District of Wisconsin.

74a
Appendix D
No. 2:15-cv-00461-WCG
William C. Griesbach, Judge.
ORDER
On consideration of the petition for rehearing and
rehearing en banc, no judge in regular active service has
requested a vote on the petition for rehearing en banc
and the judges on the original panel have voted to deny
rehearing. It is, therefore, ORDERED that the petition
for rehearing and rehearing en banc is DENIED.

